<html>
<title> - SHUTTING DOWN TERRORIST PATHWAYS INTO AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




             SHUTTING DOWN TERRORIST PATHWAYS INTO AMERICA

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-86

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-268 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Statement of Francis X. Taylor, Under Secretary, Office of 
  Intelligence and Analysis, U.S. Department of Homeland 
  Security; Accompanied by Leon Rodriguez, Director, U.S. 
  Citizenship and Immigration Services, U.S. Department of 
  Homeland Security; Huban A. Gowadia, Deputy Administrator, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security; Kevin K. McAleenan, Deputy Commissioner, 
  U.S. Customs and Border Protection, U.S. Department of Homeland 
  Security; and Daniel H. Ragsdale, Deputy Director, U.S. 
  Immigrations and Customs Enforcement, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8

                             For the Record

The Honorable John Katko, a Representative in Congress From the 
  State of New York:
  Background/Previous TSA Engagements with Cuba..................    30
  Email..........................................................    32
  Article, US to Deploy Federal Air Marshals on Cuba Flights.....    33
  Excerpt, Flying Blind: What Are the Security Risks of Resuming 
    U.S. Commercial Air Service to Cuba?.........................    35

                                Appendix

Questions From Ranking Member Bennie G. Thompson for the 
  Department of Homeland Security................................    41
Questions From Ranking Member Bennie G. Thompson for Huban A. 
  Gowadia........................................................    43
Questions From Ranking Member Bennie G. Thompson for Kevin 
  McAlee- nan....................................................    48
Questions From Ranking Member Bennie G. Thompson for Daniel H. 
  Ragsdale.......................................................    51
Questions From Honorable William Keating for Daniel H. Ragsdale..    53

 
             SHUTTING DOWN TERRORIST PATHWAYS INTO AMERICA

                              ----------                              


                     Wednesday, September 14, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, Duncan, Katko, Hurd, 
Carter, McSally, Ratcliffe, Donovan, Thompson, Jackson Lee, 
Langevin, Vela, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The purpose of this hearing is to receive 
testimony regarding shutting down terrorist pathways into the 
United States. I now recognize myself for an opening statement.
    This past weekend, we marked the 15th anniversary of one of 
the darkest days in our Nation's history. On September 11, 
2001, our people, our homeland, and our way of life came under 
attack. I remember watching the television with my 5-year-old 
daughter as the second tower was hit. Like many of you, I 
realized this was not an accident. It was an act of war against 
our country.
    The world has changed since then, and today my daughter is 
20 years old, but we cannot let the passage of time dull our 
memories or temper our resolve. Those who don't learn the 
lessons of history are doomed to repeat them.
    That is why in the aftermath of 9/11, we made a solemn 
pledge, ``Never again.'' The agencies represented here today 
were brought together under one roof for exactly that purpose. 
You have made counterterrorism your highest priority. You have 
connected the dots and prevented terrorist attacks and you have 
made it harder for them to infiltrate the United States 
undetected.
    But our enemies have come a long way. They see our 
weaknesses and are always trying to exploit them. Unlike the 9/
11 hijackers, though, today's jihadists are using encrypted 
apps to hide their communications and recruiting operatives 
with the ease of a tweet. What is worse, groups like ISIS are 
in the middle of an unprecedented global killing spree and they 
are sending waves of foreign fighters back home battle-hardened 
and ready to spread terror.
    Already thousands of these fighters have come back, 
including many with Western passports that can allow them to 
enter the United States. So the burden falls on you, our front-
line defenders, to identify these fanatics and shut down any 
pathway they can use to slip into our country. Let me be 
clear--this is one of our most urgent National security 
challenges.
    That is why next week I will release a new National 
counterterrorism strategy that highlights this issue and more 
broadly explains how we can roll back Islamist terrorists 
world-wide.
    We know that jihadists are looking at every route into 
America from sneaking across the Southwest Border, to flying in 
as tourists and as refugees. Today we will examine how they are 
trying to get in and what your agencies are doing to fight 
back.
    One year ago, this committee released the most 
comprehensive report on terrorist travel since the 9/11 
Commission. Our bipartisan findings were very sobering, yet the 
administration has failed to address many of them. We still 
don't have a National strategy to combat terrorist travel. Our 
refugee program is not as secure as it needs to be. We are 
struggling to bring our security checks into social media age.
    Our allies are in worse shape, especially in Europe. I have 
seen it first-hand. Their borders are not secure, they are not 
sharing intelligence quickly enough, and they are failing to 
screen travelers against terrorist databases. We cannot afford 
to wait.
    Today, I expect to hear what your agencies are doing to 
help fix this mess. If our allies can't step up to the plate, 
then terrorists will be one step closer to reaching us. I also 
hope you will discuss any barriers here at home that might be 
making it harder for you to secure our country against this 
threat.
    This time last year, our committee held the first-ever 
Congressional hearing at Ground Zero in New York. We came 
together on hallowed ground to remember those we lost in New 
York, Washington, and Pennsylvania and those who have given 
their lives to keep America safe.
    We still have an obligation to those victims and to their 
families, and I believe the best way to honor their memory is 
to keep our pledge by doing whatever we can to stop terror from 
reaching American shores.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           September 14, 2016
    This past weekend we marked the fifteenth anniversary of one of the 
darkest days in our Nation's history. On September 11, 2001, our 
people, our homeland, and our way of life came under attack.
    I remember watching the television with my 5-year-old daughter as 
the second tower was hit.
    Like many of you, I realized this was not an accident. It was an 
act of war against our country.
    The world has changed since then, and today my daughter is now 20 
years old. But we cannot let the passage of time dull our memories or 
temper our resolve.
    Those who don't learn the lessons of history are doomed to repeat 
them.
    That's why in the aftermath of 9/11, we made a solemn pledge: Never 
again.
    The agencies represented here today were brought together under one 
roof for exactly that purpose.
    You've made counterterrorism your highest priority. You've 
connected the dots and prevented terrorist attacks. You've made it 
harder for them to infiltrate the United States undetected.
    But our enemies have come a long way, too. They see our weaknesses 
and are always trying to exploit them.
    Unlike the 9/11 hijackers, though, today's jihadists are using 
encrypted apps to hide their communications and recruiting operatives 
with the ease of a Tweet.
    What's worse, groups like ISIS are in the middle of an 
unprecedented global killing spree. They are sending waves of foreign 
fighters back home, battle-hardened and ready to spread terror.
    Already, thousands of these fighters have come back, including many 
with Western passports that can allow them to enter the United States.
    So the burden falls on you--our front-line defenders--to identify 
these fanatics and shut down any pathway they can use to slip into our 
country.
    Let me be clear: This is one of our most urgent National security 
challenges.
    That is why next week I will release a new, National 
counterterrorism strategy that highlights the issue and, more broadly, 
explains how we can roll back Islamist terrorists world-wide.
    We know that jihadists are looking at every route into America, 
from sneaking across the Southwest Border to flying in as tourists and 
refugees.
    Today, we will examine how they are trying to get in--and what your 
agencies are doing to fight back.
    One year ago, this committee released the most comprehensive report 
on terrorist travel since the 9/11 Commission.
    Our bipartisan findings were very sobering, yet the administration 
has failed to address many of them.
    We still don't have a National strategy to combat terrorist travel. 
Our refugee program is not as secure as it needs to be. We are 
struggling to bring our security checks into the social-media age.
    Our allies are in worse shape, especially in Europe. I've seen it 
first-hand: Their borders are not secure, they are not sharing 
intelligence quickly enough, and they are failing to screen travelers 
against terrorism databases.
    We cannot afford to wait.
    Today, I expect to hear what your agencies are doing to help fix 
this mess. If our allies can't step up to the plate, then terrorists 
will be one step closer to reaching us.
    I also hope you will discuss any barriers here at home that might 
be making it harder for you to secure our country against this threat.
    This time last year, our committee held the first-ever 
Congressional hearing at Ground Zero in New York.
    We came together on hallowed ground to remember those we lost in 
New York, Washington, and Pennsylvania and those who have given their 
lives to keep America safe.
    We still have an obligation to those victims and to their families.
    I believe the best way to honor their memory is to keep our 
pledge--by doing whatever we can to stop terror from reaching American 
shores.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, for holding today's 
hearing.
    I would also like to thank the witnesses for being here 
today and their service to this great country.
    Three days ago we paused to honor the memory of those who 
lost their lives on September 11, 2001. After those horrific 
attacks on American soil 15 years ago, we committed ourselves 
as a Nation to be resilient and to ensure terror would not rule 
our days.
    The aftermath of those attacks led to the formation of the 
Department of Homeland Security. In part because of that 
decision, the Federal Government has strengthened its ability 
to detect and thwart terrorist threats and has improved 
information sharing between Federal, State, and local partners. 
Our Government has more advanced overseas intelligence 
capabilities and more stringent vetting processes for 
foreigners entering this country.
    The Department has been agile and able to respond and make 
necessary policy changes to remain secure when humanitarian 
crises arise or security vulnerabilities are exposed. However, 
the Department's ability is limited by the dysfunctional 
jurisdiction web in the House and Senate. I look forward to 
continuing a bipartisan effort with the Chairman to give DHS 
what the 9/11 commissioners recommended over 10 years ago--a 
single principal point of oversight and review for homeland 
security.
    Despite our Nation's layered approach to security, 
September 11 was not the last terrorist attack we had on 
American soil, and certainly not the last attempted attack. 
Most recently, attacks in Orlando and Charleston and attempted 
attack in Garland, Texas, have illustrated that the terrorist 
threat has changed.
    Potential terrorists do not have to leave our borders, 
undergo training in another country, and return to the United 
States to commit attacks. Terrorist attacks do not have to be 
financed or conducted at the direction of a terrorist group or 
a particular leader. Today, potential terrorists can be 
inspired by propaganda and rhetoric spewed over the internet.
    But the internet is not the only avenue for radicalization. 
Charged rhetoric in the public forums has fueled the 
proliferation of both domestic and foreign-inspired terrorist 
organizations. As DHS Secretary Johnson indicated last weekend, 
our Government is able to connect the dots associated with 
overseas terrorist-directed plots on our homeland.
    However, we need to be vigilant about lone actors, people 
who are self-radicalized and may not appear on a particular 
watch list or be flagged at the border. In response to this 
evolution to the terrorist threat, the Department and its 
Federal partners have renewed its focus on countering violent 
extremism.
    DHS created the Office of Community Partnerships, chairs 
the interagency CVE Task Force, and has established community-
based grants to counter violent extremism. The Department is 
pursuing all these efforts and Congress is appropriating funds 
for these activities. However, DHS has not issued a CVE 
strategy or transmitted an implementation plan to Congress.
    Moreover, the written testimony today and previous 
statements by the Secretary give the impression that DHS CVE 
programs may be designed to focus singularly on one ideology 
and engaging one community.
    The threat landscape is ever-evolving. It would be a shame 
to, in the words of the 9/11 Commission, suffer from a failure 
of imagination about what ideology or what group could be 
behind an attempted attack on the United States because we have 
a myopic view of the threat to our Nation.
    I look forward to a robust decision with our distinguished 
panel, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 14, 2016
    Three days ago, we paused to honor the memory of those who lost 
their lives on September 11, 2001. After those horrific attacks on 
American soil 15 years ago, we committed ourselves as a Nation to be 
resilient and to ensure terror would not rule our days. The aftermath 
of those attacks led to the formation of the Department of Homeland 
Security.
    In large part because of that decision, the Federal Government has 
strengthened its ability to detect and thwart terrorist threats and has 
improved information sharing between Federal, State, and local 
partners. Our Government has more advanced overseas intelligence 
capabilities and more stringent vetting processes for foreigners 
entering our country.
    The Department has been agile and able to respond and make 
necessary policy changes to remain secure when humanitarian crises 
arose or security vulnerabilities were exposed.
    However, the Department's agility is limited by the dysfunctional 
jurisdictional webs in the House and Senate. I look forward to 
continuing a bipartisan effort with the Chairman to give DHS what the 
9/11 Commissioners recommended over 10 years ago--``a single, principal 
point of oversight and review for homeland security.''
    Despite our Nation's layered approach to security, September 11 was 
not the last terrorist attack we have had on American soil and 
certainly not the last attempted attack. Most recently, attacks in 
Orlando and Charleston, and the attempted attack in Garland, Texas, 
have illustrated that the terrorist threat has changed.
    Potential terrorists do not have to leave our borders, undergo 
training in another country, and return to the United States to commit 
attacks. Terrorist attacks do not have to be financed by or conducted 
at the direction of a terrorist group or a particular leader. Today, 
potential terrorists can be inspired by propaganda and rhetoric spewed 
over the internet.
    But the internet is not the only avenue to radicalization. Charged 
rhetoric in public forums has fueled the proliferation of both domestic 
and foreign-inspired terrorist organizations. As DHS Secretary Johnson 
indicated last weekend, our Government is able to connect the dots 
associated with overseas terrorist-directed plots on our homeland. 
However, we need to be vigilant about lone actors--people who are self-
radicalized and may not appear on a particular watch list or be flagged 
at the border.
    In response to this evolution in the terrorist threat, the 
Department and its Federal partners have renewed its focus on 
``countering violent extremism''. DHS created the Office of Community 
Partnerships, chairs the Interagency CVE Task Force, and has 
established community-based grants to counter violent extremism.
    The Department is pursuing all these efforts and Congress is 
appropriating funds for these activities; however, DHS has not issued a 
CVE strategy or transmitted an implementation plan to Congress.
    Moreover, the written testimony today and previous statements by 
the Secretary give the impression that DHS CVE programs may be designed 
to focus singularly on one ideology and engaging one community.
    The threat landscape is ever-evolving. It would be a shame to, in 
the words of the 9/11 Commission, suffer from a ``failure of 
imagination'' about what ideology or what group could be behind an 
attempted attack on the United States because we had a myopic view of 
the threat to our Nation.

    Chairman McCaul. Thank you, Ranking Member. Other Members 
are reminded opening statements may be submitted for the 
record.
    We are pleased to have a distinguished panel of witnesses 
before us here today. First, the Honorable Francis Taylor, he 
serves as the under secretary for intelligence and analysis at 
the Department of Homeland Security. Prior to this assignment, 
he was vice president, Chief Security Office for General 
Electric and served as the assistant secretary of state for 
diplomatic security. Thank you, sir, for being here. He also 
has 31 years of military service rising to the rank of 
Brigadier General.
    Next, we have the Honorable Leon Rodriguez, who serves as 
the director of U.S. Citizenship and Immigration Services since 
2014. Prior to that time, he was director of the Office for 
Civil Rights at the Department of Health and Human Services.
    Next we have Dr. Gowadia. She is the deputy administrator 
of the Transportation Security Administration, where she guides 
implementation of the administrator's goals, as well as 
oversees the TSA's day-to-day operations. Prior to that time, 
she served as director of the Domestic Nuclear Detection Office 
at the U.S. Department of Homeland Security.
    Then finally, we have Mr. Kevin McAleenan, who currently 
serves as deputy commissioner of the U.S. Customs and Border 
Protection. Previously he served as acting deputy commissioner 
at CVP and as the area port director of Los Angeles 
International Airport where he directed CVP's border security 
operations at LAX.
    Then actually finally is Daniel Ragsdale, the chief 
operating officer for ICE, where he executes oversight of the 
agency's day-to-day operations of its 20,000 employees.
    I want to thank all of you for being here given--in the 
interest of time, Secretary Taylor will be offering his 
statement on behalf of all the witnesses here today. The Chair 
now recognizes Secretary Taylor for his opening statement.

  STATEMENT OF FRANCIS X. TAYLOR, UNDER SECRETARY, OFFICE OF 
    INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND 
 SECURITY; ACCOMPANIED BY HON. LEON RODRIGUEZ, DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
  HOMELAND SECURITY; HUBAN A. GOWADIA, DEPUTY ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
 HOMELAND SECURITY; KEVIN K. MC ALEENAN, DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
    SECURITY; AND DANIEL H. RAGSDALE, DEPUTY DIRECTOR, U.S. 
   IMMIGRATIONS AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Taylor. Thank you, Chairman McCaul, Ranking Member 
Thompson, distinguished Members of the committee. I have 
submitted a statement for the record, a written statement for 
the record.
    We look forward to discussing our progress preventing 
terrorist and terrorist-inspired attacks at home and preventing 
terrorists and radicalized individuals from traveling to the 
United States to launch attacks.
    We continue to make extraordinary strides in adapting to 
the evolving threat environment, pushing our borders outward, 
and playing defense on their 1-yard line as opposed to ours.
    Every day, we work with our Federal, State, local, Tribal, 
and territorial and private-sector partners to protect our 
critical and sensitive infrastructure and to prevent terrorists 
from traveling within the United States. We combine passenger 
and manifest data with intelligence and law enforcement 
information to detect foreign terrorist fighters and others who 
may pose potential threats before they reach our country.
    Our pre-clearance program at foreign airports prevented 
more than 10,700 travelers--that is 29 per day--from traveling 
to our country and we are looking to expand this very 
successful program further with our international partners.
    We are taking aggressive steps to enhance aviation and 
airport security here at home and around the world, reducing 
airport employee access points and increasing random screening 
of personnel within the secured areas of airports.
    Several million more personnel will be screened by TSA this 
year than last. With your support, we are surging resources and 
adding personnel to address the increased volume of travelers. 
Since 2014, we have enhanced security at overseas last-point-
of-departure airports and a number of foreign governments have 
replicated those enhancements in other places other than last-
point-of-departure airports.
    Our visa security program, where ICE agents are stationed 
at embassies abroad, reviewed more than 2 million visa 
applications last year, contributing to approximately 8,600 
visa refusals. Of these refusals, over 2,200 had some known or 
suspected connection to terrorism or terrorist organizations.
    We continue to strengthen the security of our Visa Waiver 
Program, screening Electronic System for Travel Authorization, 
or ESTA, information against the same counterterrorism and law 
enforcement databases that travelers with traditional visas are 
screened and must be approved prior to the individual boarding 
an airplane coming to the United States.
    We have expanded the use of social media currently used for 
more than 30 different operational and investigative purposes 
within the Department, and we are expanding this further, 
particularly in the screening and vetting mission set.
    All refugees entering our country are subject to the 
highest level of security check of any category of traveler to 
the United States and admitted only after successfully 
completing a stringent security screening process.
    Syrian refugees undergo an additional layer of screening 
referred to as the Syrian Enhanced Review. Through this 
process, each Syrian refugee application is reviewed at USCIS 
headquarters prior to interview and to determine possible 
National security concerns.
    For those cases with potential National security concerns, 
CIS conducts both open-source and Classified research, 
including social media research, on the facts presented in the 
refugee's claim to inform their adjudication process.
    Secretary Johnson has made preventing illegal special 
interest alien migration a priority for the Department. We are 
implementing a plan of action to enhance our ability to 
identify and disrupt human smuggling networks that facilitate 
illicit special interest alien migration to and across our 
Nation's borders.
    We are sharing more information and more intelligence with 
Federal, State, local, and international partners than ever 
before. Today the National Network of Fusion Centers serves as 
the cornerstone for this information-sharing architecture 
within our country, providing grassroots intelligence and 
analytical capability at the local and National level. Using 
the Department's unique information and sharing it with our 
intelligence partners at an appropriate level of classification 
is just as critical.
    The DHS data framework initiative will integrate the 
Department's most important data sets so that we can compare 
DHS data with travel data, immigration, and other information 
at the Unclassified and Classified levels.
    Mr. Chairman, I will end my oral comments there and look 
forward to your questions.
    [The joint prepared statement of Mr. Taylor, Mr. Rodriguez, 
Dr. Gowadia, Mr. McAleenan, and Mr. Ragsdale follows:]
   Prepared Statement of Francis X. Taylor, Leon Rodriguez, Huban A. 
          Gowadia, Kevin K. McAleenan, and Daniel H. Ragsdale
                           September 14, 2016
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to appear before you 
today to discuss the Department of Homeland Security's (DHS) efforts to 
prevent foreign terrorist groups from traveling to the United States to 
launch attacks. We look forward to discussing our joint progress in 
preventing terrorist attacks directed at the homeland.
    In the 15 years since the tragic attacks on September 11, 2001, 
DHS, with critical support from our interagency partners, has 
implemented comprehensive measures to enhance our immigration and 
border management systems and prevent the travel of terrorists to and 
within the United States, including:
    Implementing robust, continuous, and timely screening and vetting 
        capabilities;
    Preventing and disrupting illicit migration of Special Interest 
        Aliens to and across U.S. borders;
    Expanding information sharing with our Federal, State, local, and 
        international partners;
    Ehancing DHS aviation security efforts; and
    Building community partnerships to Counter Violent Extremism.
    DHS recognizes that the types of attacks we have seen at home and 
abroad are not just terrorist-directed attacks, but also terrorist-
inspired attacks. These attacks are conducted by those who live among 
us in the homeland and self-radicalize, inspired by terrorist 
propaganda on the internet. Terrorist-inspired attacks are often 
difficult to detect by our intelligence and law enforcement 
communities. They can occur with little or no notice, and present a 
complex homeland security challenge.
    The current threat environment requires new types of responses. The 
United States, along with our coalition partners, continues to take the 
fight to terrorist organizations overseas. ISIL is the most prominent 
terrorist organization on the world stage. As ISIL loses territory, it 
has increased attacks and attempted attacks on targets outside of Iraq 
and Syria. It continues to encourage attacks in the United States, 
which makes our work ever more critical.
                         screening and vetting
    Every day, the Department works within the scope of its diverse 
authorities and programs to ensure that terrorists are denied access to 
sensitive and secure locations and infrastructure, and stopped from 
traveling to or within our country.
    DHS is continually refining its risk-based strategy and layered 
approach to border security, extending our zone of security as far 
outward from the homeland as possible to interdict threats before they 
ever reach the United States.
    To mitigate the potential threat of foreign terrorist fighters who 
attempt to travel to and from Syria, the Department uses intelligence 
and law enforcement information in conjunction with advance passenger 
information to detect foreign terrorist fighters and others who pose a 
potential threat to the United States. Equally important, DHS works in 
close partnership with carriers and international counterparts to 
prevent passengers who may pose a security threat, or who are otherwise 
inadmissible, from boarding flights to the United States. The 
Transportation Security Administration (TSA) vets all passengers 
traveling inbound to the United States against terrorist watch lists 
and can adjust its vetting in a risk-based manner to provide additional 
focus on specific travel patterns or locations. Since January 2016, 
nearly 7,000 known or suspected terrorists were denied boarding or 
received secondary screening at airports world-wide due to the rigor of 
the Secure Flight program.
    DHS has continued to push the borders outwards through the growth 
of its pre-clearance program, managed through the U.S. Customs and 
Border Protection (CBP). CBP personnel at 15 airports overseas pre-
clear air travelers before they board flights to the United States and 
coordinate with TSA for boarding of aircraft. In fiscal year 2015, 
preclearance allowed DHS to deny boarding to over 10,700 travelers (or 
29 per day) before they could travel to the United States. TSA 
personnel assist CBP by working with host governments to ensure all 
pre-cleared flights are subject to security measures commensurate to 
U.S. requirements. We are looking to expand this program--in May, CBP 
announced an ``open season,'' running through August 1, for foreign 
airports to express interest in participating in the next round of 
preclearance expansion. CBP received 20 letters of interest and is 
currently in the process of evaluating each location.
    Through the Visa Security Program (VSP), U.S. Immigration and 
Customs Enforcement (ICE) personnel at diplomatic posts overseas 
identify terrorists, criminals, and other individuals who pose a threat 
or are otherwise ineligible for visas prior to their travel or 
application for admission to the United States. ICE works 
collaboratively with other U.S. agencies and host countries' law 
enforcement counterparts to investigate suspect travelers, enhance 
existing information, and identify previously-unknown threats instead 
of simply denying visas and any potential travel. In fiscal year 2015, 
VSP reviewed over 2 million visa applications, contributing input to 
approximately 8,600 cases in which visas were refused. Of these 
refusals, over 2,200 applicants had some known or suspected connection 
to terrorism or terrorist organizations.
    We have significantly strengthened the Visa Waiver Program (VWP) 
vetting process. All VWP travelers must submit their data to the 
Electronic System for Travel Authorization (ESTA) before they travel to 
the United States. This screening now includes obtaining additional key 
data elements from VWP travelers and greater collaboration with 
interagency law enforcement and intelligence partners. ESTA information 
is screened against the same counterterrorism and law enforcement 
databases as traditional visas, and must be approved prior to an 
individual boarding a plane bound for the United States for VWP travel. 
This enhanced screening has identified more than 1,600 travelers as 
presenting potential law enforcement or security risks in fiscal year 
2016.
    On December 18, 2015, the President signed into law the 
Consolidated Appropriations Act of 2016, which included the Visa Waiver 
Program Improvement and Terrorist Travel Prevention Act of 2015 (VWP 
Improvement Act). The VWP Improvement Act codified VWP enhancements 
implemented earlier that year. It also established new restrictions on 
eligibility for travel to the United States without a visa for 
individuals who visited or are dual nationals of certain countries. We 
began implementing the new restrictions on January 21, 2016. Waivers 
from these restrictions are only granted on a case-by-case basis, and 
only when it is in the law enforcement or National security interests 
of the United States. It is important to note that those who are no 
longer eligible to travel to the United States under the VWP as a 
result of the new law may still apply for a visa at a U.S. Embassy or 
Consulate.
    In February, pursuant to the VWP Improvement Act, the Secretary 
added 3 additional countries--Libya, Yemen, and Somalia--to a list that 
generally prohibits anyone who has visited these nations in the past 5 
years from traveling to the United States without a visa. Most 
recently, in April, we began enforcing the mandatory use of high-
security electronic passports for all VWP travelers. In both February 
and June, CBP enhanced the ESTA application by requiring responses to 
additional questions.
    We have expanded our use of social media, which is currently used 
for more than 30 different operational and investigative purposes 
within the Department. Based upon the recommendations of a Social Media 
Task Force within DHS, the Secretary determined, consistent with 
relevant privacy and other laws, that DHS must expand the use of social 
media even further, particularly in the screening and vetting mission 
set. We note that our use of social media information is limited to 
publicly-available information, consistent with DHS authorities, and 
maintained and handled in accordance with the Privacy Act and relevant 
System of Records Notices.
    Working closely with the Science and Technology Directorate, we 
conducted a number of pilots to automate the bulk screening of social 
media information with human review across a number of our high-
priority populations, including refugee and ESTA applicants. These 
pilots have shown promise, and we are now conducting operational 
testing against live cases. The Science and Technology Directorate 
continues to work with industry to leverage the billions of dollars of 
private-sector investment in social media analytics to identify 
solutions that can best support DHS screening and vetting.
    DHS is doing its part to address the Syrian refugee crisis. U.S. 
Citizenship and Immigration Services (USCIS), in conjunction with the 
Department of State, have worked to admit more than 10,000 Syrian 
refugees this fiscal year. All refugees, including Syrians, are 
admitted only after successful completion of a stringent security 
screening process. Refugees are subject to the highest level of 
security checks of any category of traveler to the United States.
    Additional enhancements to the standard refugee screening process 
have been added for Syrian refugees. USCIS and the State Department 
ensure that all refugees successfully complete extensive, multi-layered 
and intense screening processes. These processes involve multiple law 
enforcement, National security, and intelligence agencies across the 
Federal Government. For certain categories of refugees, we have added 
other security checks as warranted.
                      preventing illicit migration
    Special Interest Aliens (SIAs) represent a relatively small 
proportion of illicit migration to and across U.S. borders. However, 
due to the potential threat posed by this group, Secretary Johnson has 
made preventing illicit SIA migration a priority. On June 24, 2016, he 
issued a directive establishing the DHS SIA Joint Action Group (JAG). 
The JAG developed a consolidated plan of action to enhance and better 
coordinate DHS's efforts to identify and disrupt human smuggling 
networks that facilitate illicit SIA migration to and across U.S. 
borders. The plan, which was signed by Secretary Johnson on August 31, 
leverages Department-wide capabilities to both extend our borders and 
to improve our processes to gather and share information on SIAs with 
international, interagency, and State and local partners.
    The plan contains five strategic goals:
    1. Build an integrated screening solution with partner countries 
        along illicit migration routes;
    2. Strengthen those countries' investigative capabilities;
    3. Improve their detention and repatriation capacity;
    4. Enhance DHS intelligence integration and coordination; and
    5. More efficiently and effectively collect information from SIAs 
        who arrive at our borders.
                          information sharing
    In response to the tragic attacks of September 11, 2001, DHS has 
worked closely with our Federal, State, and local partners to improve 
our domestic information-sharing architecture. Today, the National 
Network of Fusion Centers serves as the cornerstone of this 
architecture, providing grassroots intelligence and analytic 
capabilities to their customers at the State and local levels.
    In addition to the benefits provided to State and local partners, 
fusion centers are unique resources in the Homeland Security 
Enterprise, providing subject-matter expertise and critical State and 
local information to the Federal Government. Fusion centers help 
identify previously-unknown threats or trends by contributing raw 
information, including Suspicious Activity Reporting, to DHS, Joint 
Terrorism Task Forces (JTTFs), and the intelligence community. They 
collaborate with Federal partners to conduct joint analytic 
collaboration to detect patterns in criminal and terrorist activities, 
and support the JTTFs' terrorism-related investigations. The Department 
supports their efforts by providing personnel, training and assistance, 
security clearances, and connectivity to Unclassified and Classified 
Federal systems.
    The Homeland Security Information Network (HSIN) is our primary 
platform to share Unclassified information and facilitate real-time 
collaboration and situational awareness. In particular, we share 
Unclassified intelligence and analysis via the HSIN-Intelligence (HSIN-
Intel) Community of Interest. HSIN-Intel is a secure platform for 
intelligence professionals and enhances collaboration, analytical 
exchange, and timely information sharing with our State and local 
partners.
    Using the Department's unique information and sharing it with our 
intelligence community partners at appropriate levels of classification 
is critical. To achieve this, the ``DHS Data Framework'' initiative is 
integrating the Department's most important datasets so we can compare 
DHS data with travel, immigration, and other information at the 
Unclassified and Classified levels. This will enable multiple, cleared 
users from components with a need-to-know to more readily access the 
information they need to make quick and informed security decisions. We 
are building the Data Framework alongside our intelligence community 
partners' technology modernization efforts, including the Intelligence 
Community Information Technology Enterprise initiative. This will 
maximize our ability to use, protect, and share information with our 
partners consistent with all applicable laws, regulations, and policies 
that protect privacy and civil liberties.
    The Department has also expanded information sharing and vetting 
cooperation with international partners. This work serves two purposes. 
First to gain new insight into an individual's immigration application 
including their identity and whether they pose an immigration, law 
enforcement, or terrorism risk. Second to support our allies' National 
vetting efforts, reducing the odds that terrorists or criminals may use 
a partner's territory as a staging ground. To date, through our Secure 
Real-Time Platform, we have vetted over 300,000 immigration 
applications for international partners, helping them to identify 
potential travel by known or suspected terrorists. We have also 
recently begun to compare select refugee applications and enforcement 
cases against foreign data.
                           aviation security
    During the last year, attacks against aircraft and airports in 
Egypt, Somalia, Belgium, and Turkey have underscored the continued 
threat to aviation. The Department is taking aggressive steps to 
enhance aviation and airport security globally. Despite increased 
travel volume, DHS has not compromised aviation security. Instead, with 
the support of Congress, we have surged resources and added personnel 
to address the increased volume of travelers.
    TSA has worked aggressively to refocus on security effectiveness. 
Since last summer, TSA has retrained the entire Transportation Security 
Officer (TSO) workforce, increased use of random explosive trace 
detectors, tested and reevaluated screening equipment, enhanced certain 
manual screening procedures, and eliminated the Managed Inclusion II 
program, which randomly placed unknown travelers into TSA 
Pre<check><SUP>TM</SUP> lanes. TSA has also implemented centralized 
new-hire training at the TSA Academy, located at the Federal Law 
Enforcement Training Center in Glynco, Georgia.
    Further, in April of last year, TSA issued guidelines to domestic 
airports to reduce access to secure areas in order to address concerns 
about insider threats. Today, employee access points have been reduced 
and random screening of personnel within secure areas has increased. In 
collaboration with our airport partners, we are continuing our efforts. 
Earlier this year, TSA and airport operators completed detailed 
vulnerability assessments and mitigation plans for over 300 airports 
Nation-wide.
    Finally, TSA has worked with foreign partners to strengthen 
security overseas last-point-of-departure airports, and security at 
these airports remains a focus area in light of recent attacks 
overseas. Altogether, TSA's efforts have enhanced the security of our 
Nation's aviation system.
                      countering violent extremism
    Violent extremist threats come from a range of groups and 
individuals, including domestic terrorists and home-grown violent 
extremists in the United States, as well as international terrorist 
groups like al-Qaeda and ISIL. The threat begins with recruitment, 
inspiration, and winning the hearts and minds of potential terrorists. 
Al-Qaeda and ISIL continue to target Muslim communities in our country 
to recruit and inspire individuals to commit acts of terror. In 
response to this threat, DHS formed the Office of Community 
Partnerships (OCP) in 2015. Building bridges to diverse communities and 
working to ensure families and communities are well-informed is the 
best defense against terrorist ideologies. This work is a DHS 
imperative. As the Secretary has testified, building communities is as 
important as any of our other homeland security missions.
    OCP is now the central hub for the Department's efforts to counter 
violent extremism in this country as well as being the host for the 
Countering Violent Extremism Interagency Task Force. OCP's work is 
focused on partnering with and empowering communities by providing them 
a wide range of resources to use in preventing violent extremist 
recruitment and radicalization. Specifically, we are providing access 
to Federal grant opportunities for community organizations and State 
and local leaders, and partnering with the private sector to find 
innovative, community-based approaches. DHS announced its first $10 
million in grants in July of this year.
                        congressional oversight
    We would like to take this opportunity to discuss the considerable 
efforts DHS devotes to complying with oversight requests. Congressional 
oversight requests to the Department come from 92 different committees 
and subcommittees with jurisdiction over DHS. Secretary Johnson has 
pledged transparency and candor with Congress, and has committed to 
respond to Congressional inquiries in a timely fashion. Under his 
leadership, the Department's responsiveness to oversight requests has 
improved by over 60 percent. We have cut our average response time from 
42 business days to 17.
    We accomplished this in spite of a significant increase in 
correspondence. During calendar year 2015, DHS received approximately 
700 oversight letters and countless more oversight requests. At the 
current rate, we expect numbers of inquiries and responses will be 
significantly higher this year. Similarly, the hearing schedule has 
accelerated. We recognize and appreciate Congress's legitimate 
oversight responsibility, and we are making greater efforts to 
accommodate Congress's increasing demands.
                               conclusion
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, we thank you again for the opportunity to appear before you 
today to discuss these important issues. We look forward to answering 
your questions.

    Chairman McCaul. Thank you, Secretary Taylor, and I 
recognize myself for questions.
    First to Secretary and to Dr. Gowadia. We have had about 
40,000 foreign fighters that have converged into Iraq and 
Syria, 6,000 with Western passports. ISIS says they have sent 
thousands of these fighters back home, in their words. The 
French have reported that 15,000 potential extremists were in 
their country.
    As you noted, we passed the Visa Waiver Program last 
Congress, marked up out of this committee, requiring these 
participating countries to screen travelers against Interpol. 
Are these countries complying with that requirement?
    Mr. Taylor. Sir, they are complying with those 
requirements, in addition, complying with the requirements to 
have an HSPD-6 agreement with our Government in the exchange of 
information on terrorists, terrorist investigations with those 
countries.
    Chairman McCaul. Because I know previously in my travels 
abroad they were not, and it was a very disturbing fact to find 
out. Dr. Gowadia, the last-point-of-departure airports concern 
me. I have been to Cairo, I have seen the State security out of 
that airport, it is not exactly stellar. Istanbul airport 
concerns me. We had a markup yesterday on the Cuban flights 
coming in.
    My concern, we saw what happened with Sharm el-Sheikh, the 
insider threat. If there is not proper vetting, a corrupted or 
radicalized employee can put a bomb onto an in-bound flight 
into the United States. Cairo has one into JFK every day.
    Can you tell me what the requirements are for last-point-
of-departure airports in terms of the standards? Why can't we 
hold them to the same standards that we hold our people in the 
United States to?
    Ms. Gowadia. Thank you, Chairman McCaul.
    I don't want to get into the details of each of the 
requirements, but I will tell you that at last points of 
departure all across the world, for flights that come directly 
to the United States from last-point-of-departure airports, 
whether they are U.S. carriers or foreign carriers, we do have 
in place not just international standards but additional 
requirements that the U.S. Government levies on those air 
carriers and those airports to ensure that the security 
standards we need to feel safe and secure are in place. We 
conduct assessments all around the world to make sure that that 
happens.
    Chairman McCaul. But my understanding is it is just sort-of 
a minimal standard threshold they have to meet and in some 
cases some airports are better than others, is that correct?
    Ms. Gowadia. Well, so there are standards that the 
international body places for all of us to ascribe to, but as 
you are aware, TSA on behalf of the U.S. Government attaches 
additional security requirements.
    We also have the ability to use tools such as security 
directives and emergency amendments to add additional 
requirements based on the airport, based on the operation.
    We work very closely with our foreign government partners, 
as well as with the airlines and airports themselves so that 
they can build their own capacity. We work with them to train 
them, teach them, share best practices.
    Chairman McCaul. But when it comes to vetting employees, I 
know that we heard yesterday. Cuba will not allow us to assist 
them to vet their employees and in Cairo, when I asked them are 
you using our intelligence databases or are we able to help vet 
your employees, I didn't get a very good response to that 
question.
    That very much concerns me, because I don't want to be 
sitting here having a hearing a year from now where a bomb goes 
off on an in-bound flight from Cairo into JFK or from Cuba into 
Miami. It is just an area of concern for me.
    Mr. McAleenan, the White House just announced today they 
are going to increase the number of refugees into United States 
to a number of 110,000. We know that the Democratic nominee, 
Mrs. Clinton, has said that she would like to see the number of 
Syrian refugees accepted into the United States increase from 
the 10,000 that we have already let into the United States to 
65,000 Syrian refugees.
    We have heard testimony before this committee from the 
director of the FBI to the Secretary of Homeland Security and I 
received a letter from the director of national intelligence 
warning us about the threat that these refugees pose. We know 
that two of the Paris attackers came through the refugee 
program. What is your level of concern with these refugees?
    Mr. McAleenan. Mr. Chairman, I would defer to Director 
Rodriguez on the Syrian refugee vetting process. It is 
something that I got to witness in Istanbul with his personnel 
doing very in-depth interviews, but I would offer just as you 
noted your time in Europe that our process is very different 
and more stringent than what we are seeing from some of our 
partners.
    From CBP's perspective, any refugee that is pre-approved by 
USCIS goes through the same layers of pre-departure vetting as 
any traveler to the United States. So we would check them once 
again against all databases, coordinate with intel community, 
look at any other risk factors as they are arriving, including 
taking biometrics again and conducting an interview with an 
officer----
    Chairman McCaul. I understand. I think the concern at the 
time was when the director of the FBI testified before this 
committee that we can query, in his words, until the cows home 
if you don't have the databases to vet them against.
    When I was over there in Jordan, the Minister of Security 
said, I don't know who these people are. So it is a very--we 
passed a bipartisan bill in the House to put a pause in the 
program and then have certification at the highest levels.
    Mr. Rodriguez, can you assure the American people that they 
do not pose a threat to the security of the United States?
    Mr. Rodriguez. We can assure--and something that was 
actually corroborated by Director Comey, by the director of the 
National Counter-Terrorism Center, by the director of national 
intelligence, that the vetting process that we undertake is the 
highest level of scrutiny that any traveler to the United 
States receives.
    I think very critical and very specific is the interagency 
check, which is one of six different batteries of screens that 
are conducted. That queries against intelligence databases. 
Several hundred people have been outright denied because of 
derogatory information that comes up. A much larger number of 
people have been placed on hold for further scrutiny.
    So the reality is that the combination of those databases, 
of the interview process, of the screening criteria in the 
first place, the selection criteria for the refugee applicants 
that are referred to the United States does indeed provide a 
high level of security.
    It doesn't eliminate all risk, and I think we have been 
very candid about that. But it does create a very potent 
process to really hinder anybody either who--if somebody coming 
directly from a terrorist organization wanted to infiltrate, 
this would certainly be quite a serious obstacle to them. We 
also worry about an individual who perhaps harbors those 
desires but has not necessarily manifested.
    Chairman McCaul. My time is limited, but there are some 
technologies out there that I think could help with the 
screening in terms of detecting the truth, whether they are 
lying during their interview or not, and I would ask that you 
look at some of these technologies.
    I have seen them myself, and I think that would go a long 
ways, I think. A lot of them are mothers and children and I 
understand that, but there are military-aged males in the Iraqi 
refugee program. With good intelligence, we still had two 
terrorists slip through the cracks in that program.
    My final question, going back to Mr. McAleenan. In ISIS's 
latest publication, Dabiq magazine, they talk about smuggling a 
Pakistan nuclear device into this hemisphere and across the 
U.S.-Mexico border.
    That is them, in their own words, and I have to take that 
seriously. Whether they have that capability is a whole other 
question, but with respect to the U.S.-Mexico border, have you 
seen any change or increase in chatter from these extremist 
groups related to these routes that the smugglers have in this 
hemisphere?
    Mr. McAleenan. So that is something we track very closely, 
Mr. Chairman, with the help of the Under Secretary and his team 
as well as the I.C. We have seen the aspirational discussions 
like you referenced in terrorist publications from time to 
time, some scattered chatter that is usually debunked in 
partnership with our government in Mexico counterparts, but not 
seeing a ton of credible, validated intelligence that suggests 
that ISIS is trying to exploit specific routes.
    Chairman McCaul. OK, thank you. My time is expired. Chair 
recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. The goodness of this 
country is that we have marketed ourselves as a bastion of 
democracy and that if there are individuals who want to come 
and meet our test for coming, then they are welcome. So I would 
hope that as we pursue securing our country, we kind of 
remember that we are basically a country made up of immigrants 
from somewhere else.
    Now, Mr. Rodriguez, can you just kind-of describe in short 
order the kinds of scrutiny that someone who would want to come 
to this country as a refugee? How long does that normally take, 
that process?
    Mr. Rodriguez. Sure, I will do it in short order, and I 
will assure you that the longer order would also give you even 
further comfort. First of all, each of those refugees has an 
encounter with a Government official multiple times before they 
even come to be interviewed by one of my officers. Those 
officers who conduct those interviews are intensely trained, 
including, importantly, in truth detection and in detection of 
deception.
    That is true of all of our officers, whether they are 
refugee officers or not. In addition, there are six different 
types of security database queries that are conducted. They 
look at intelligence databases, law enforcement databases, 
Department of Defense, consular databases, Customs and Border 
Protection databases, all occurring incidentally at a time when 
one of the highest priorities of our Government is in fact 
knowing as much as we can know about the people who are seeking 
to do us harm. So in fact when we query against those 
databases, we do in fact find stuff when we do that.
    In addition, we give certain selection criteria to the 
United Nations High Commissioner on Refugees, which means that 
certain groups of people are prioritized. People who have 
already themselves been victims of torture, victims of violence 
in some way, domestic violence victims, families, particularly 
mother-led families, and those screening criteria in many 
respects also tend to give us further comfort about the kind of 
individuals.
    Now, I would not put a chronological duration on that. I 
think you have heard of 18 to 24 months as a time line. That 
has historically been true, but that doesn't--in fact, the real 
important question from my perspective is the quality of each 
of those activities that I describe, the quality of the 
databases against which we are querying, the quality of the 
work that we are doing in analyzing those results, the quality 
of the interviews conducted by my officers.
    I would also add, because I know you are going to ask about 
this sooner or later, we have been, as General Taylor has 
highlighted, on an increasing basis particularly with the 
Syrian refugee applicants been looking at social media postings 
by those individuals as a further tool in screening those 
individuals prior to their being stamped ready for travel.
    Mr. Thompson. Thank you very much. If you missed something, 
would you just kindly provide it to the committee?
    Mr. Rodriguez. It would be my pleasure and happy to come 
visit each of you individually, because we could talk for hours 
actually about what my folks do.
    Mr. Thompson. Right. Dr. Gowadia, we heard testimony 
yesterday that somehow in Cuba the standards for planes 
originating there coming to the United States should be 
different than 280 other airports with flights originating 
coming to the United States. Can you, in your position, verify 
that Cuba flights originating from Cuba coming to the United 
States meet the international standards that the 280 other 
airports of last points of departure meet coming to the United 
States?
    Ms. Gowadia. Yes, Mr. Thompson. I can definitely affirm 
that we have been in Cuba multiple times and we have observed 
that they are meeting the international standards as well as 
some of the requirements the U.S. Government places at those 
airports.
    Now, we have had flights from there for 6 years that have 
met all the same security standards that would be required of 
the scheduled flights that are now resuming.
    Mr. Thompson. So the fact that there is a Communist 
government would be no different than Russia, China, or 
Vietnam, for that matter, in terms of a Communist country?
    Ms. Gowadia. So our assessment is of the security 
environment at these airports and we go in and make sure that 
they meet these standards, international and the additional 
U.S. standards, requirements.
    Mr. Thompson. Thank you. General Taylor, there has been a 
lot of conversation about election cybersecurity. Can you tell 
us where DHS is moving in that area to assure the American 
public that future elections will continue to be secure?
    Mr. Taylor. Thank you, Ranking Member Thompson. Admiral 
Rogers mentioned yesterday and across the U.S. Government, 
there is concern about reports of hacking into electoral 
systems, voter systems and those sorts of things in a couple of 
States so far. It is a concern for the Secretary. He has 
conducted an outreach to election officials across the country 
with advice on securing, how to secure, better secure electoral 
systems.
    But it is a continuing concern. We don't believe that the 
results of the election are in jeopardy, but this is an area 
that we have to make sure that our 6,000 jurisdictions across 
this country that manage elections have all the tools that they 
need to make sure those systems remain secure.
    Mr. Thompson. So your testimony is that you were working 
with some of those----
    Mr. Taylor. We are working with all of those 60,000 across 
cybersecurity as well as physical security to ensure that those 
processes that are used in our election process are as secure 
as they can be.
    Mr. Thompson. Thank you, I yield back, Mr. Chair.
    Chairman McCaul. The Chairman recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for this 
valuable hearing, especially as a follow-up to yesterday. 
Ladies and gentlemen, I chair the the Western Hemisphere 
Subcommittee on the Foreign Affairs Committee and I have 
traveled extensively through Latin America, even with Chairman 
McCaul when I was on the Subcommittee on Oversight and 
Management Efficiency here.
    What I have looked at and what I have learned a lot in the 
last 6 years is the activity of Hezbollah, Iran, and other 
foreign nationals, possibly FTOs in Latin America. In fact, 
there is an area known as a tri-border region you are probably 
very, very aware of. Just recently, Honduras apprehended, I 
think it was October last year, apprehended 5 Syrians who were 
caught at the airport trying to come to America, to the United 
States using fake Greek passports.
    Now, how did they get to Honduras? They traveled through 
Latin America, by way of Brazil, and they got to Latin America 
from Syria on fake Israeli passports. We know from 
conversations we have had in Paraguay, with Paraguayan 
intelligence, that that area is a hotbed for false documents 
and fake documents.
    We know that Syrians are traveling into Turkey and for as 
little as $600 can change their identity with fake passports, 
not falsified, doctored, but just it looks like you, here is 
your new name.
    So if Syrians from the war-torn area can obtain fake 
Israeli passports and travel to Latin America, and for $25,000 
there, exchange those passports for fake Greek passports to try 
to come to this country, my question to you is this. The 
hearing is about shutting down terrorist pathways into America. 
There is one pathway they were trying to get into America and 
those were just ones that were caught in Honduras because they 
did not speak Greek.
    But what if they had gotten by land into Mexico and worked 
their way up through the Mexican country and walked across our 
border like so many people do every day? There is a DHS term, 
OTM, other than Mexican, people that come to the United States 
and cross our border that are not of Mexican nationality. They 
could be African, and they are, they could be Middle Eastern, 
and they are, they could be Asian, and they are.
    Based on testimony in this committee over the last 6 years, 
verified that OTMs are apprehended. That is a pathway into this 
country, so my question to you is, how do we shut down that 
terrorist pathway if our Southern Border is unsecured?
    Mr. Taylor. Thank you for the question, Congressman.
    Mr. Duncan. If anything I said is wrong, feel free to 
dispute it.
    Mr. Taylor. Yes, sir. I would defer first to my colleagues 
from CBP and ICE. This is--the special interest alien issue is 
a major emphasis by the Secretary looking at how human 
smuggling organizations are trying to--or are taking money to 
smuggle people from war-torn areas and into the Southern 
Hemisphere and then attempt to cross our border.
    We think we have an effective partnership with our partners 
in Latin America to interdict that and, in fact, the Secretary 
has asked us to redouble our efforts. So I would refer to 
Deputy Commissioner----
    Mr. Duncan. So let me just inject one other thing in this--
--
    Mr. Taylor. Yes, sir.
    Mr. Duncan [continuing]. For this discussion purpose. We 
learned yesterday that someone coming across our Southern 
Border, apprehended by CBP can claim asylum and they are let 
go. Too many times. San Diego TV station had a great video 
about that.
    So if they come through this terrorist pathway into this 
country crossing our Southern Border and apprehended by our 
security personnel, they claim asylum and are let go, how do I 
assure folks in South Carolina that we don't have elements that 
have nefarious purposes in mind now loose in America because 
our Government let them go?
    Mr. Taylor. Sir, again, I would refer to my colleagues from 
CBP and ICE to address that specific concern.
    Mr. McAleenan. Thank you, Congressman Duncan. This is a 
pathway, and it is one that we are laser focused on, as the 
under secretary indicated, from Secretary Johnson on down in an 
inter-agency fashion across DHS and with partners.
    To provide a little bit of context briefly, individuals 
from regions or countries that have active conflict zones make 
up less than 1 percent of all unlawful migrants interdicted 
along our Southwest Border. Some of them enter between ports of 
entry as you noted, but most present themselves at ports of 
entry.
    Mr. Duncan. Let me stop you right there. Active combat 
zones, Syria, Iraq, where ISIS battle in Afghanistan, Boko 
Haram is in Africa, Abu Sayyaf is in the Philippines, al-Qaeda 
is global, ISIS is now global. I am not talking about just 
people from Syria, of course you know that. I am talking about 
people that have nefarious aims on hurting Western democracies, 
specifically the United States of America and Americans.
    That is who I am talking about. So don't just limit it to 
combat zones, please.
    Mr. McAleenan. So actually, my comment included the 
countries that you specifically named and a specific 
understanding about ISIS and al-Qaeda's global presence. But 
just to give you some specifics about why your constituents 
should know that we are very focused on this issue, it is very 
similar to our approach on any lawful flow. We try to identify 
threats and interdict them at the earliest possible point in 
coordination with international partners.
    From the places they are leaving from, to the arrival in 
the Western hemisphere, you mentioned Brazil as an arrival 
point, through the pathway up through Central America, the 
Panama-Colombia chokepoint, as well as Mexico.
    When they get to the U.S. border, we have usually seen them 
or had an opportunity to take biometrics with partners multiple 
times. At the U.S. border, once they are interdicted either by 
a Border Patrol Agent or present themselves at a port of entry, 
we go through a special process with these arrivals.
    First, we check them against all CBP holdings and watch 
lists. We check them through the National Targeting Center with 
the intel community. We do an in-depth interview with trained 
personnel, Border Patrol Agents and CBP Officers. We reach out 
to our ICE, HSI partners, and JTTF.
    We run biometrics against DHS, DOJ, DOD databases. It is a 
very extensive process with people who specialize in the 
region, who have the language skills to make sure that we are 
vetting out any risk----
    Mr. Duncan. OK, I am going to reclaim my time because I am 
just about out, but let me just make something clear. Secretary 
Johnson sat right there, Director Comey sat right there, the 
director of the National Counter-Terrorism Center sat right 
there at that same table, and they told us that we cannot 
properly vet Syrian refugees. These are people that our 
Government knows about, that applied for refugee status to come 
to America, and we can't properly vet them.
    So I don't believe that we can assure the people in South 
Carolina that you can properly vet those that have transited 
Latin America and come across our Southern Border that you have 
apprehended, and now you have got them in front of you and you 
are trying to see if that person is who they say they are, and 
try to vet them right then in that little bit of time.
    Because our own Government had told us that people applying 
for refugee status cannot be properly vetted, told me I can't 
assure my constituents that before we drop Syrian refugees in 
our local communities, that our own Government can vet them and 
tell us who they are because either records did exist, they 
were destroyed in the civil war or were never very good to 
begin with.
    So if you can't vet Syrian refugees through the normal 
Department of State process and Homeland Security process, I 
struggle with your answer that you are vetting someone that 
crossed our Southern Border through those same databases.
    Chairman McCaul. The gentleman's time has expired. Ms. 
Jackson Lee is recognized.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member for continuing to project for the American people in 
both reality and our actions the importance of oversight as it 
relates to the security and safety of the American people.
    I thank the witnesses for being here and would like to 
personally offer my appreciation for your service to the Nation 
and also to make the point that we are looking at a 
multifaceted attack on the United States, maybe two prime ones, 
and that is of course the threat that comes from without and, 
as the FBI director said, the 50 terrorist cells that are in 
our respective States.
    I want to congratulate, compliment, take note, if I might, 
because public servants don't take congratulations, they are 
doing their job, that we have been fairly and good at those 
coming into the Nation, coming into the country.
    As I can recollect, since the heinous acts of 9/11, what 
comes to mind is the shoe-bomber, thwarted, though it was on an 
airplane, thwarted, the New Year's Eve potential threat from 
the Northern border, thwarted, and certainly we have had 
incidences of recent note that have been because of 
individuals.
    So let me go to General Taylor, because I think what we 
need to be doing here is as well listening to you but seeking a 
pathway to collaborate to ensure that we stay at the highest 
level that we have ever been.
    Before I do that, General, let me just say that my 
recollection, Director Rodriguez, of the comments of Secretary 
Johnson was not using the word threat as related to refugees, 
because I think what you left out is the long time that 
refugees are in camps before they come to the United States, 
how the selection process comes, the 2-year waiting period, the 
right of the United States to reject those individuals before 
they even leave the soil of the refugee camp.
    So by the time--the vetting is not the day they step on the 
soil of the United States. The vetting is an on-going process 
from the time that they are in the United Nations refugee camp. 
That is my understanding of the--and you might say, yes, that 
that is a pool upon which any 110,000 or 70,000 would be coming 
from.
    Mr. Rodriguez. No, that is absolutely correct. Really from 
the moment that they register with the United Nations to the 
time that they are approved to travel, frankly even past the 
time----
    Ms. Jackson Lee. So they are not on the highway hailing a 
cab and then getting on an airplane to the United States?
    Mr. Rodriguez. No, no, Congresswoman, absolutely not.
    Ms. Jackson Lee. I think that is important. Let me just 
continue. So then the vetting process is a building block 
process coming forward, I think that is important for our 
constituents to know so that however we seek to help you, 
whether more resources for vetting that they know that these 
individuals are vetted pre-leaving and then continued vetting 
if necessary, but pre-leaving the foreign soil, is that 
correct?
    Mr. Rodriguez. The process that occurs before they leave 
foreign soil is a multi-agency, multi-step, multi-layered 
process that occurs over a very long period of time. It has--I 
described the elements in response to the Ranking Member's 
questions. It is a very ordered, very lengthy, very intense 
process to which these applicants are subjected. That is 
absolutely correct.
    Ms. Jackson Lee. Thank you. It has been enhanced, thank 
you. Deputy Commissioner, Deputy Administer, TSA, just a brief 
question on Cuba. Cuba will have on-going oversight by the 
Transportation Security Administration, is that not correct? 
You are in and out of Cuba and in and out of surveying those 
airports, is that correct?
    Ms. Gowadia. Yes, ma'am. We will continue our collaborative 
partnership with the Cuban airports as well as the airlines 
that go in and out of there.
    Ms. Jackson Lee. But the collaborative partnership is an 
intense oversight that answers any questions about whether 
there is any fracture in their security protocols?
    Ms. Gowadia. Yes, ma'am. We are seeking to even have 
somebody permanently stationed in Cuba to be able to facilitate 
rapid action if necessary.
    Ms. Jackson Lee. You feel that those on-going negotiations 
are going well?
    Ms. Gowadia. Yes, ma'am, they are.
    Ms. Jackson Lee. General Taylor, may I ask, we know that--
and I have questions for the last two if you would be indulged 
for just a moment. We know that we are facing a new phenomenon 
in terrorism. ISIL is certainly, unfortunately, on the lips 
probably of a kindergartener. They might be able to give us a 
definition of ISIL.
    So my question is in terms of looking at the Homeland 
Security Department, founded just 16 years and some months 
maybe ago, or 16, 15-plus post-9/11 ago, bringing in so many 
different entities. Do you feel comfortable that the American 
people have a Department that is integrated enough, cooperating 
enough and collaborative that you can face the threat of ISIL, 
along with, there are other agencies, meaning defense and 
others, but the Homeland Security that you can face the threat 
of ISIL because you are integrated enough to be communicating 
with ICE, CBP, TSA, Secret Service, et cetera, and the many 
agencies?
    Mr. Taylor. Thank you for the question, Congresswoman 
Jackson Lee. I was the U.S. coordinator for counterterrorism on 
9/11 at the State Department, had responsibility for working 
with our foreign partners. I left Government in 2005 from the 
State Department, returned to this position in 2013.
    I have been awe-struck by the integrated nature of how we 
approach counterterrorism in the Department of Homeland 
Security, and I wanted to come back to Representative Duncan's 
question. We have pushed the borders of this country to the far 
reaches of the Earth in terms of where we start vetting, where 
we work with our partners to understand the threats and risks 
that come at our homeland, and through that pushing of the 
border out, we get better data, better information, better 
opportunities to vet, not at the point of attack on our 1-yard 
line, but on their 1-yard line in Central and South America, in 
Europe and in other places around the world.
    So I think we are better integrated than we have ever been. 
Are we satisfied with where we are? No, because we continue to 
evolve our vetting capability based upon the new risks and 
threats that come at us from ISIS and other organizations that 
attempt to attack the United States of America.
    Ms. Jackson Lee. To the director of ICE, thank you very 
much. Then I will just give you another question in writing 
that I will submit to the record regarding the nuclear capacity 
that ISIS may have and our capacity to deal with, but if I can 
just get into the deputy director of ICE. Internal 
investigation that you are responsible for, I would hope----
    Chairman McCaul. If we can make--because I want to get to 
all the Members before.
    Ms. Jackson Lee. OK, and I will just finish up, thank you 
for your indulgence, I will finish up very quickly. Are you 
working well with the issue of priority--since we are talking 
about terrorism and terrorist acts, I want to make sure that 
the ICE team understands or is comfortable with the priorities 
that have been established for prosecution are going after that 
you are looking to those individuals that may be directly 
related to potential terrorist activities in the United States.
    Mr. Ragsdale. So absolutely, Congresswoman. We are directly 
focused on that. First of all, we work tremendously well with 
our partners in the Department of Justice, the amount of effort 
we put in our own investigations that relate to 
counterterrorism. Using our authorities, working with the 
bureau, we have been able to disrupt a substantial percentage 
of acts in the United States so it is absolutely our top focus.
    Our visa security program as it is, as the under secretary 
mentioned, is a way to push that border out. It is not simply a 
question of using a screening or an automated solution to check 
data. It is really the talent of our special agents being 
placed overseas----
    Ms. Jackson Lee. Excellent.
    Mr. Ragsdale [continuing]. Working side-by-side with our 
consular officers. That is a powerful tool and a much better 
situation to be in post-9/11.
    Ms. Jackson Lee. Thank you, Mr. Chairman, thank you. I 
yield back.
    Chairman McCaul. The Chair recognizes the gentlelady from 
Arizona, Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman, and I appreciate this 
hearing.
    I had the privilege to be on the bipartisan task force last 
year from this committee, appointed by the Chairman and led by 
our colleague, Mr. Katko, for combating foreign fighters and we 
took a deep dive into this issue that we are talking about 
today, identified over 50 findings and 32 recommendations, and 
many of them have been working their way through Congress and 
being signed into law.
    One I would like to follow up on, which was actually in 
that law, was directing DHS to review and consider investing in 
deception-detection technology. The Chairman brought this up; I 
feel a bit like a broken record.
    I bring this up at every hearing, I bring it up at every 
meeting, I bring it up at every Classified discussion. Look, 
the best operatives' reports and research show even the best 
most highly-trained operatives can only detect deception in 
about 50 percent of the cases, when a human being is lying to 
them.
    There is off-the-shelf technology out there, some of it 
developed at the University of Arizona that we have 
demonstrated to your agencies but others out there as well, 
that can very cheaply and easily help detect deception while 
you are doing interviews overseas and other places and all the 
different ways that could be exploited, whether that is filling 
out the ESTA form or doing the K1 interview process.
    There is technology out there. I just, I feel like we are 
moving at the speed of bureaucracy while the bad guys are 
moving at the speed of broadband. So I am asking again what 
since the law was signed last year, directing DHS to 
investigate the use of deception detection technology, what has 
been done?
    Mr. Taylor. Congresswoman, I am embarrassed to say that I 
am not prepared to answer that question, but I will take it for 
the record in terms of where we are.
    Ms. McSally. OK, Mr. McAleenan, can you answer for your 
organization?
    Mr. McAleenan. I am familiar with the work we have been 
doing with the Office of Science and Technology in the pilot 
with the University of Arizona and others on this technology. 
It is something we are very interested in.
    Ms. McSally. Right.
    Mr. McAleenan. Something we invest a lot in training our 
personnel on detecting deception eliciting responses in their 
questioning, but you are right. Anything that can enhance our 
capabilities, we want, so that is something that we will take 
back and continue to pursue.
    Ms. McSally. Thank you. I just--I hear this every single 
time I ask it, just to be frank with you. I understand, I 
worked in the military, it is a big bureaucracy.
    It doesn't move quickly, but especially given the 
indications that we have, with Tashfeen Malik and others that 
clearly are in interviews lying, I mean this stuff needs to be 
looked at and employed I think very quickly and thoughtfully.
    This can be--it is a manpower-intensive process that we are 
trying to do to shore up these vulnerabilities, we get that. 
But if we can use the technologies to help, we will really be 
able to address these vulnerabilities.
    So I am kind-of a little bit tired of the, we will get back 
to you and I really want to hear a report. Maybe we can have a 
follow-up meeting, see how we can push to implement this in a 
faster way. It is in the law.
    Mr. Taylor. We will get back to you in very short order.
    Ms. McSally. Great.
    Mr. Taylor [continuing]. On where we are----
    Ms. McSally. Thank you.
    Mr. Taylor [continuing]. And what the plan is moving 
forward.
    Ms. McSally. Great, thank you. I want to ask--the next 
question is, I chair the Border and Maritime Security 
Subcommittee. We had a committee hearing a few months ago where 
we talked about visa overstays and the report that was 
submitted last year related to visa overstays showed that if 
you extrapolate the number of people that we believe, not just 
apprehensions, but those who came over the Southern Border for 
the year, actually more people overstayed their visa than 
actually came over the Southern Border.
    So this was somewhat I think alarming information to some 
people, and again, we had a full hearing on the issue but can 
you give us an update in this hearing on what is going on with 
addressing the visa overstay issue and then also specifically, 
the student visa issue seems to be one that is exploited a lot.
    Is it not unreasonable to make students report and re-
certify every single year that they are still on student 
status, otherwise their visa is revoked? Because this is 
another vulnerability.
    Mr. McAleenan. I will start briefly and turn it over to my 
colleague, Director Ragsdale. So we have made strides and 
submitted the overstay report last year. As you note, about 1 
percent of those traveling on non-immigrant visas or Visa 
Waiver Program did overstay their visas, and we have seen over 
the subsequent months, a number of those people have left, but 
not within their compliant time frame.
    Next year, we will be submitting an expanded report that 
includes student visa categories as well as skilled workers to 
cover about 99 percent of those who have come as non-
immigrants. When we do see an overstay, we refer those to ICE 
through a prioritized, automated mechanism based on 
intelligence for further follow-up and action.
    Ms. McSally. Yes, and the 1 percent number sounds small, 
but again it is hundreds of thousands of people. I don't know 
the number in my head right now but it is a significant number 
of people. The other thing we wrote up in that hearing was also 
for the countries that are routinely having these overstays, we 
are still actually issuing visas to their citizens to come over 
here.
    Can we tie some sort of disincentive or incentive carrot 
and stick related to our other elements and leverage that they 
have got to shore this up otherwise we are going to stop or 
limit their ability to continue to violate this?
    Mr. Ragsdale. So I would defer to the Department of State 
on the issue----
    Ms. McSally. Yes.
    Mr. Ragsdale [continuing]. Visa issuance piece. What I 
would say in terms of enforcement, as the Deputy Commissioner 
said, we do take the prioritized leads over to ICE.
    The first bit of vetting we would do is obviously our 
counter-terrorism nexus. We sent about 10,000 leads out to our 
special agent field offices. For vetting, we had about 2,000 
arrests last year of people that posed the greatest threat.
    The remainder of those cases are obviously taken through 
our Secretary's priorities for immigration enforcement, and 
that is really agnostic as a terms of manner of entry. Folks, 
we find folks in a jail, in a place where they have been 
convicted of a crime, they obviously are a priority.
    As far as the students, the student visa population between 
the folks that are actually in school and their dependents is 
about a little over a million folks.
    They are regularly sort-of monitored by our student and 
exchange visitor program. So not only does the institution that 
is certified by--excuse me, CBP, have to be accredited and 
monitored, but the actual school officials themselves have to 
make sure that the students are in fact maintaining a full 
course of study and the other requirements.
    So there is actually a great partnership between the 
academic institutions and the SVP program to make sure that we 
do have good capability of keeping students in check.
    Ms. McSally. Just to clarify, I mean a couple of the 9/11 
hijackers used the student visa program, so what you are saying 
is, in the last 15 years, this is now at a place that you think 
that that, the student visa program cannot be further 
exploited?
    Mr. Ragsdale. We have made tremendous strides since then. 
There is no doubt about that. We went from a very antiquated 
system to monitor students to a much more robust system and 
there is more modernization to do there.
    We also have sort-of made sure that we have great 
collaboration between our CBP partners at the ports of entry to 
make sure that they know, because students are admitted for 
duration of status and not for a particular of time as they 
study, that if someone has fallen out of status as a student, 
it is available to our colleagues at CBP immediately.
    Ms. McSally. OK, thank you. I am way over my time, thank 
you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
and the Ranking Member for holding this hearing and for 
everything that you are doing to make sure that we are closing 
down any and all pathways from potential terrorists from 
getting into this country.
    To the panel, thank you for your testimony here today. One 
of my chief concerns in stemming the flow of terrorist travel 
is information sharing among our allies.
    We have seen instances in Europe, for example, where one 
country's intelligence community had a suspect on their radar 
but that information was not shared with another country where 
he eventually actually carried out a terrorist attack. General 
Taylor, I will start with you, but I welcome input from the 
panel. Are we getting better intelligence from our partners so 
that similar scenarios don't play out on U.S. soil?
    Mr. Taylor. We are getting better intelligence, 
Congressman. To the issue of sharing within particularly in the 
European Union, the director of national intelligence held a 
conference with several of our E.U. intelligence partners. They 
have now formed an organization where they do share that 
information more regularly among themselves, as well as with 
us, and the other change in Europe since the last hearing here 
has been the creation of Europol and the European Counter 
Terrorism Centre, where that law enforcement information is 
also being shared.
    We are closely aligned with Europol and with the 
intelligence services within the European Union and other 
intelligence partners and the flow of that information has been 
steady and even getting better since last year.
    Mr. Langevin. I know that European privacy laws are in many 
ways stricter than even those in the United States. Is it your 
assessment that those restrictions are not a factor anymore?
    Mr. Taylor. I wouldn't say that they aren't a factor 
because governments share information under their legal 
systems, but I don't believe that it has hindered our ability 
to get the necessary information that are required of our 
partners so that we can better understand what the threats are 
that are coming at us and it continues to get better.
    Mr. Langevin. Thank you. In your joint testimony, you 
referenced using the secure real-time platform to vet 
immigration applications for international partners. I 
certainly strongly support efforts to help our allies keep 
terrorists from entering their countries.
    Again, I will start with you, General Taylor, but we 
welcome input from the panel. Can you delve into some more--
into the functioning of the platform and are there 
complimentary programs being stood up by our partners to allow 
us to use their data?
    Mr. Taylor. Well, the secure real-time platform allows our 
partners across the world to share directly information with 
us, biometric information of interest that we can give them 
information back on what sits in our biometric databases. We 
now work with Canada and Australia. We have offered it to other 
countries across the world for this purpose of better quickly 
sharing that data in a systematic way.
    Several countries are considering whether to use the secure 
real-time platform or not. We think it is an important piece of 
our information exchange with those countries. I would ask 
Deputy Commissioner McAleenan to speak a little bit about ATSG, 
because that also ties into the sort of information-sharing 
regime that we are trying to have with our international 
partners.
    Mr. McAleenan. Sure. Thank you, Congressman, I think you 
are very right to focus on the information sharing as a 
critical piece both within and among our allies and also with 
the United States.
    In addition to the secure real-time platform, we are 
pursuing any opportunities to directly share information with 
partners and allies around the world, especially in Europe, 
especially in countries where there could be pathways from the 
conflict zone.
    We don't stop just with a request to share direct 
biographic or biometric information. We also offer capacity 
building, we offer methodology for analyzing data such as 
reservation data or manifest data that air carriers use, and we 
also, as General Taylor indicated, offer our systems developed 
over decades actually, at a lot of expense to be able to 
appropriately take in data, analyze it, and produce results 
that can operationalized by border and law enforcement 
authorities.
    We have had great partnerships developing in these areas 
with different countries. So it is a high priority for us.
    Mr. Langevin. Thank you. My final question, this hearing is 
focused on terrorist pathways into the homeland, and both your 
testimony and your questions are focused on keeping the 
physical presence out to prevent kinetic effects that could 
destroy American lives and property or harm people in any way. 
However, as we all well know, cyber attacks on physical systems 
can cause similar damage.
    How are your agencies working to ensure terrorists do not 
have a foothold on American networks to use cyber space as a 
pathway into America?
    Mr. Taylor. Well, whether it is terrorists, foreign 
countries, international criminals, the effect is the same. Our 
National Programs and Protection Directorate, NPPD, has been 
given the responsibility to protect the dot gov environment, as 
well as to inform our private-sector partners on threats and 
risks in cyber space. They work very closely with NSA and the 
Department of Defense and the FBI in ensuring that our 
cybersecurity posture is strong across the Nation.
    We don't talk a lot about it--we don't often speak about 
cybersecurity, but it is as high a priority for our Department 
from a terrorist perspective as it is from a nation-State or 
criminal actor perspective as a threat to our homeland.
    Mr. Langevin. Anybody else with any comments? Thank you, 
Mr. Chairman, I yield back.
    Mr. Katko [presiding]. Thank you, Mr. Langevin. The Chair 
now recognizes the gentleman from Georgia, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here and thank you for what you do to help protect 
our country. I want to start with you, Mr. McAleenan--help me 
out.
    Mr. McAleenan. McAleenan. I thought Dr. Gowadia was beating 
me on the tough name today, but McAleenan.
    Mr. Carter. I am sorry, we don't have many McAleenans in 
south Georgia, just--yes, go figure. But, anyway, you know, one 
of the things that a lot of my constituents and I think a lot 
of Americans are concerned about is the flow of fighters 
traveling to Syria and this has continued for years and 
continues to this day. It is a concern that we have here in 
Congress and we are very concerned about it, especially giving 
the lack of complete data on the issue.
    Do you believe that Customs and Border Protection and that 
the Department of Homeland Security have properly addressed 
this threat? I mean, this is a real concern among Americans.
    Mr. McAleenan. I think it is an appropriate concern and the 
Chairman started our hearing with the numbers, 40,000 foreign 
fighter to the conflict zone, 6,000 from the West, it is a 
major concern, and our highest priority throughout all of our 
mission sets at CBP.
    Mr. Carter. Well, given that, what is CBP doing to combat 
it? Tell me what they are doing to combat this issue and detect 
those looking to join ISIS?
    Mr. McAleenan. Absolutely. On Monday, I was pleased to join 
our commissioner and others in opening up our new National 
targeting center, which is our hub for analyzing data on 
potential foreign fighters and terrorists that might be headed 
toward the United States or toward allies and partners, and we 
mentioned the information sharing with the Congressman's last 
question. We have either targeting system collaboration or 
methodology in direct exchange with other 25 partner nations at 
this point and that is continuing to expand.
    So what we try to do is identify the threats and address 
them at the earliest possible point. We take the traveler from 
their first contact with the U.S. Government when they apply 
for permission to travel to the United States, a visa, with our 
partners at State and with ICE and ESTA, which is Electronic 
System for Travel Authorization for our visa-waiver program 
partner. When they reserve a ticket to the United States, when 
they show up to check in and before they take off and upon 
arrival, at each of those stages, we are evaluating all the 
information available to the U.S. Government, both to CBP and 
our partners, as well as the intelligence community to identify 
risks and prevent people from boarding.
    Mr. Carter. OK.
    Mr. McAleenan. We do that 10,000-plus times a year just on 
data alone and another 10,000 at our pre-clearance airports 
around the world.
    Mr. Carter. OK, and you are comfortable we are doing 
everything we can do as far as that goes, because, again, I am 
telling you this is a major concern in my district and all 
districts throughout this country.
    Mr. McAleenan. I am comfortable that it is our top priority 
that we need to continue to improve. The areas that we are 
continuing to work are on those international partnerships and 
building capacity with our allies----
    Mr. Carter. OK.
    Mr. McAleenan [continuing]. As well as with their intel 
community.
    Mr. Carter. Let me move to you, Mr. Ragsdale. Visa 
overstays, this is something that we are often asked about and 
this is something that is an issue that is becoming 
increasingly recognizable. I mean it is just something that 
everyone is talking about. What sort of program have we got to 
measure this? Explain that very quickly if you can.
    Mr. Ragsdale. So, from a security standpoint, which I know 
is the focus of this hearing, we have our counterterrorism 
criminal enforcement units. So, in other words, we have what I 
will say is an inter-agency methodology we use to look at data 
on visa overstays that we get from our partners at Customs and 
Boarder Protection to make sure that we are prioritizing that 
number, which is a fairly large number, for action.
    So in other words, any person that presents a threat to 
National security is targeted by our special agent offices and 
homeland security investigations for potentially analysis and 
location and arrest.
    Where we can make criminal cases, we do that. Where we have 
to make administrative immigration arrests, we would also do 
that.
    Mr. Carter. Are you tracking the reasons for the overstay?
    Mr. Ragsdale. These are human beings, so you can imagine 
the reasons are as varied as the number of folks. We are 
certainly working in a way that the--what I will say is the 
history is used to inform our partners.
    Mr. Carter. OK, I am running short on time. I don't mean to 
interrupt you. Let me ask, are you sharing this information 
with Congress?
    Mr. Ragsdale. On overstays?
    Mr. Carter. Yes.
    Mr. Ragsdale. Yes, in fact, the CBP produced the first 
report last year and as the Deputy Commissioner said, there 
will be more data in the report this coming year.
    Mr. Carter. OK, thank you, Mr. Ragsdale. Mr. Taylor, very 
quickly and I am sorry I don't have much time here. I just want 
to talk very quickly about the travel of foreign fighters, and 
particularly through Europe. What are we doing in 
communicating, when you are working with European nations to 
try to coordinate our efforts here?
    Mr. Taylor. We are doing quite a bit. As a matter of fact, 
I leave tomorrow night for Slovakia to meet the current 
presidency of the European Union to further the work that has 
been done by the Dutch in collaborating on the sharing of 
information among the European Union on foreign fighters and 
other terrorist operations in Europe. We have a very strong 
relationship with the European Union, both European Union 
bilaterally and the individual members of the European Union, 
as well as with Europol, as I mentioned earlier.
    We have several members of the DHS team that are co-located 
at Europol, work extensively with European police agencies on 
their investigations, our investigations in a collaborative 
fashion. Is it perfect? Not yet, but it is a work in progress 
and it is a high priority for our Secretary to sustain that.
    Mr. Carter. OK. Well, thank you. Ladies and gentlemen, you 
have got a very important job and a very tough job, and we 
understand that. All of us understand that. We want to help 
you. We here in Congress want to help you. So please understand 
that, please understand that we have got to work together to 
make this work. I hear and I read where, oh, they want to shut 
the borders down. Nobody has said that.
    What they have said is we want the best vetting system that 
we can possibly have. We want to make sure that those people 
who are coming here are not coming here to hurt us. The No. 1 
responsibility of our Federal Government is to protect our 
homeland, to protect our citizens. We in Congress want to help 
you to perform your jobs in that respect. Thank you very much.
    Mr. Taylor. Sir, if I might just very quickly respond. It 
is also our top priority and has been the top priority of the 
leadership of the department and the administration to ensure 
that the quality of vetting is the best possible and we 
continue to work to enhance it as we move forward.
    Mr. Carter. Thank you.
    Mr. Katko. Thank you, Mr. Carter, and thank you, General. I 
want to note at the outset that I am not Chairman McCaul. He 
had to go to another hearing and he asked me to take over for 
him, and he also asked me to express his sincere thanks for 
your testimony today, and I will do the same, so thank you very 
much, gentlemen and Doctor.
    General Taylor, when you were testifying, answering a 
question from Ms. McSally, you answered it candidly.
    I have got to tell you, I appreciate that. I appreciate 
when someone comes before Congress, if they don't have the 
answer, they tell you they don't have the answer, and it is 
very important to understand that we are all on the same side 
trying to keep this country safe.
    We different jobs--ours is oversight, yours is action--and 
I appreciate when if you don't know the answer, you say it, 
because when someone comes before Congress and they try to 
deflect or they do not answer the question directly, it does 
impact our view of what is going on, so thank you very much. I 
very much appreciate your professionalism, so thank you.
    Now, I want to read you a quote, General, briefly and tell 
me if you agree with this. I presume you do but I am going to 
make sure. ``Federal air marshals serve as an active last line 
of defense against terrorism and air piracy and are an 
important part of the multi-layered strategy adopted by the 
U.S. to thwart terrorism in the civil aviation sector.'' Do you 
agree with that?
    Mr. Taylor. I do.
    Mr. Katko. OK, it is self-evident, is it not? I believe in 
intelligence circles. Now, Dr. Gowadia, how are you?
    Ms. Gowadia. I am well sir, thank you.
    Mr. Katko. Thank you very much. Yesterday prior to our 
hearing on various issues, we had a--on Cuba, a bill I was 
trying to pass we got--an issue of Cuba. There was a time line 
that was produced by the Department of Homeland Security. Do 
you have that in front of you?
    Ms. Gowadia. I just received it, sir.
    Mr. Katko. OK, thank you. Accompanying that time line--and 
it lists various events happening with Cuba since 2010, various 
security-related events and what they have done in that regard, 
TSA and Homeland Security, is that right?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. OK. We also received in connection with that an 
e-mail from the Department of Homeland Security making sure 
that there is no sensitive security information in that report 
so I feel comfortable talking about everything in there.
    I will ask that both of these documents be entered into the 
record.
    Without objection, so ordered.
    [The information follows:]
         Background Submitted For the Record by Hon. John Katko
             background/previous tsa engagements with cuba
November 2010 to Present
    TSA continues to enjoy a robust and effective working relationship 
with the Cuban Institute of Civil Aviation (IACC). Listed below are 
highlights of the past 5+ years.
Accomplishments:
  <bullet> November 2010.--Transportation Security Administration 
        Representative (TSAR) Mizell's first assessment in Cuba with 
        visits to Havana, Santiago, Camaguey, Cienfuegos, and Holguin. 
        Prior to 2010, the last Office of Global Strategies (OGS) last 
        visit was to Havana in October 2007.
  <bullet> August 2011.--Because of the positive relations established 
        during the first visit in 2010 by TSAR and Miami ROC 
        inspectors, the TSAR was able to facilitate a reciprocal visit 
        by Cuban representatives to observe security measures at the 
        last-point-of-departure (LPD) airports at John F. Kennedy 
        International Airport (JFK) in New York and Miami International 
        Airport (MIA) in Miami in August 2011. During this visit, the 
        Cuban delegation presented TSA with a copy of its Civil 
        Aviation Security Program, which was a big step in sharing 
        sensitive information, all due to the newly-established 
        professional rapport.
  <bullet> October 2011.--TSAR facilitated TSA Inspector visits to 
        Santa Clara and Manzanillo.
  <bullet> January 2012.--Assessment and air carrier inspections were 
        conducted in Havana.
  <bullet> February 2012.--TSA/OGS shared information with Cuba to 
        assist with Liquids Aerosols and Gels (LAGs) implementation.
  <bullet> February 2012.--The Chief of Mission and First Secretary of 
        the Cuban Interests Section in Washington, DC, visited TSA 
        Headquarters and met with OGS to discuss IACC's earlier visit 
        to JFK and MIA in August 2011.
  <bullet> May 2012.--Assessments were conducted in Holguin and 
        Santiago.
  <bullet> July 2012.--Assessments were conducted in Camaguey and 
        Cienfuegos.
  <bullet> July 2012.--LAGs restrictions were fully implemented at all 
        LPD airports throughout Cuba.
  <bullet> January 2013.--A Cuban delegation visited airports in Ft. 
        Lauderdale and Tampa.
  <bullet> February 2013.--Secure Flight was implemented for all Cuban 
        LPD airports to the United States.
  <bullet> March 2013.--TSA arranged Ground Security Coordinator 
        training for 25 Cuban aviation security personnel in Havana.
  <bullet> April 2013.--TSA hosted a visit at TSA Headquarters by the 
        Chief of Mission, Cuban Interests Section, Washington, DC.
  <bullet> June 2013.--TSA completed startup assessments/air carrier 
        visits for Santa Clara and Manzanillo.
  <bullet> June 2013.--Discussions began on the possibility of mail 
        service between Cuba and the United States.
  <bullet> May 2014.--A Cuban aviation security delegation visited JFK 
        and the TSA Systems Integration Facility (TSIF) in the District 
        of Columbia.
  <bullet> September 2014.--The TSAR and representatives from the 
        Office of Chief Counsel and the Federal Air Marshal Service 
        (FAMS) traveled to Havana to explain and propose a F AMS 
        arrangement.
  <bullet> November 2014.--TSA met with IACC personnel in Havana to 
        discuss Secure Flight implementation.
  <bullet> February 2015.--Assessment and air carrier inspections were 
        conducted in Havana.
  <bullet> February 2015.--Ground Security Coordinator Training was 
        completed in Havana by American Airlines.
  <bullet> March 2015.--TSA participated with other representatives 
        from the interagency in meetings with a Cuban delegation.
  <bullet> April 2015.--Assessments and air carrier inspections were 
        completed in Santiago and Holguin.
  <bullet> May 2015.--Cuba implemented a requirement for all travelers 
        to remove their shoes during the screening process on flights 
        from Havana to the United States.
  <bullet> September 2015.--TSA hosted a 7-member Cuban delegation for 
        visits to U.S. airports in Atlanta, Tampa, Ft. Lauderdale, and 
        Miami.
  <bullet> September 2015.--The TSAR participated as part of a 15-
        member U.S. delegation for technical talks in Havana.
  <bullet> October 2015.--Meeting in Havana regarding the FAMS 
        arrangement.
  <bullet> November 2015.--Assessment and air carrier inspections 
        conducted in Camaguey, Santa Clara, and Cienfuegos.
  <bullet> December 2015.--USG meeting with Cuban Postal Service 
        personnel in Havana to finalize plans for the start-up of 
        direct mail service between the United States/Cuba. USG 
        participants included reps from USPS, TSA, and CBP.
  <bullet> December 2015.--TSAR participated in a 10-member U.S. 
        delegation for a third round of technical talks that resulted 
        in approval of scheduled air carrier service between Cuba and 
        the United States.
  <bullet> February 2016.--Air carrier inspection in Havana; initial 
        focus visit to Matanzas Airport.
  <bullet> February 2016.--On February 16, the U.S.-Cuba Civil Aviation 
        Arrangement was signed in Havana for the official re-
        establishment of scheduled air services between the United 
        States and Cuba.
  <bullet> March 2016.--TSAR arranged for American Airlines to conduct 
        refresher training.
  <bullet> May 2016.--TSAR Mizell briefed IACC in Havana on upcoming 
        changes to responsibilities by the airlines and the impact it 
        will have on operations at Cuban international airports.
  <bullet> June 2016.--Air carrier inspections in Holguin, Santiago. 
        Start-up inspection in Cienfuegos. Airport assessment at 
        Matanzas Airport (VAR).
  <bullet> July 2016.--FAMS arrangement approved for charter flights.
  <bullet> August 2016.--FAMS mission for charter flights began in 
        Cuba.
  <bullet> August 2016.--TSA Assistant Administrator Mr. Paul Fujimura 
        visited two Cuban airports and met with several officials from 
        the Cuban government.
  <bullet> August 2016.--Inaugural scheduled flight between the United 
        States and Cuba with TSAR and TSA compliance inspector present.
  <bullet> August 2016.--FAMS arrangement for commercial service--
        drafted, approved by Department of State, forwarded to Cubans 
        for comment.
  <bullet> September 2016.--Meeting in Havana to discuss Ground 
        Security Coordinator roles. Participation by IACC, TSA, and air 
        carriers.
Upcoming Engagement:
  <bullet> October 2016.--Airport assessments in Cayo Coco, Manzanillo. 
        Air Carrier inspection in Varadero.
  <bullet> December 2016.--Air carrier inspections in Santa Clara, 
        Manzanillo, and Camaguey. Airport assessment in Cayo Largo.
                                 ______
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                  

    Mr. Katko. Now, if you look to the third page, in July 
2016, there is an entry which States that Federal air marshals 
service arrangement approved for charter flights, do you see 
that?
    Ms. Gowadia. Yes, sir, I do.
    Mr. Katko. OK, and so that means that for charter flights, 
there has been an agreement between the Federal air marshals 
and Cuban government to have Federal air marshals on some of 
those flights, is that correct?
    Ms. Gowadia. Indeed, sir.
    Mr. Katko. OK, now if you go down to August 2016, the 
second entry for August 2016, it says Federal air marshals 
arrangement for commercial service drafted approved by 
Department of State and forwarded to Cubans for comment, do you 
see that?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. So for the non-chartered flights in August 2016, 
there was a draft sent to the Cuban government, is that right?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. OK, has that Cuban government signed that 
agreement?
    Ms. Gowadia. Not to date, sir.
    Mr. Katko. OK, so as of today are there any Federal air 
marshals allowed on any non-charter flights between the United 
States and Cuba?
    Ms. Gowadia. No, sir.
    Mr. Katko. OK. Now, so--there is another document here, 
ma'am, that I read from, it is an article from August 11, 2016. 
In that article, it quotes, it states a quote from the TSA 
which indicates that there was an agreement between the Cuban 
government and the TSA for Federal air marshals. Do you recall 
that article?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. OK, and I have this article----
    Ms. Gowadia. I have just received it.
    Mr. Katko. OK, and I believe you spoke about it before and 
that is dated August 11, 2016, is that right?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. I ask that that be entered into the record, as 
well. Without objection, so ordered.
    [The information follows:]
          Article Submitted For the Record by Hon. John Katko
          U.S. to Deploy Federal Air Marshals on Cuba Flights
By: Amanda Vicinanzo, Online Managing Editor
08/11/2016 (10:05 pm)
    The Transportation Security Administration (TSA) announced this 
week that the United States and Cuba have reached an agreement which 
will allow federal air marshals on board certain flights to and from 
Cuba. TSA released a statement on the decision at the request of the 
US-Cuba Trade and Economic Council.
    TSA explained that In-Flight Security Officers (IFSOs), also known 
as federal air marshals, play a crucial role in aviation security. The 
agency plans to continue to work with Cuba to expand the presence of 
IFSOs on flights to and from Cuba.
    ``This agreement will strengthen both parties' aviation security 
efforts by furnishing a security presence on board certain passenger 
flights between the United States and The Republic of Cuba,'' TSA said 
in the statement, adding, ``IFSOs serve as an active last line of 
defense against terrorism and air piracy, and are an important part of 
a multi-layer strategy adopted by the US to thwart terrorism in the 
civil aviation sector.''
    Commenting on the announcement, Rep. Michael McCaul (R-Texas), 
Chairman of the House Committee on Homeland Security, warned that 
despite the presence of federal air marshals on flights between the two 
countries, Americans traveling to Cuba remain at risk.
    ``While the agreement to allow federal air marshals on-board 
flights between the United States and Cuba is a positive step, the 
American people should have grave concerns about the level of security 
currently in place at any foreign airport where the host government 
refused to allow Congress to visit,'' McCaul said.
    President Obama's plan to open regularly scheduled commercial air 
service to Cuba has been met with significant reservations. As Homeland 
Security Today previously reported, lawmakers have expressed concerns 
that terrorists could use Cuba as a gateway to the United States.
    ``The Administration is telling us that we should entrust the 
safety and security of American citizens to the Cuban government,'' 
Rep. John Katko (R-NY), who chairs the House Homeland Security 
Committee's Transportation Security subcommittee, said in a May 2016 
statement. ``A country that was just removed from the state sponsors of 
terrorism list one year ago on May 29. A country whose leaders have 
repeatedly derided the values and principles for which our great nation 
stands.''
    In July, Katko introduced legislation to prohibit all scheduled 
commercial air travel between the United States and Cuba until TSA 
certifies that Cuban airports have the appropriate security measures in 
place to keep Americans safe.
    Just weeks beforehand, Katko and other members of the House 
Homeland Security Committee were blocked by the Cuban government from 
entering the country to assess security risks associated with resuming 
air travel between the United States and Cuba.
    The first of the more than 100 daily roundtrip flights between the 
two countries is slated to begin at the end of this month.

http://www.hstoday.us/briefings/daily-news-analysis/single-article/us-
to-deploy-federal-air-marshals-on-cuba-flights/
9a674c2ceb5d4329c7a857aa4e4a81dc.html.

    Mr. Katko. In that article, they note a TSA release which 
said that there will be Federal air marshals on select 
commercial flights, is that correct?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. Isn't it true that they are really referring to 
just the charter flights?
    Ms. Gowadia. Sir, it is important for us to realize that 
the compromise, the strategy, the exact operations of our 
Federal air marshals is not in the best interest of aviation 
security.
    We try to be very careful in allocating our FAMs to flights 
based on risk, based on threat, and certainly based on 
agreements. We will continue to try to expand our FAMs coverage 
on all flights out of Cuba and we have no reason to believe 
that this will not proceed on scheduled flights at this time.
    To the best of my knowledge, I don't know that they will 
resist the ability to place FAMs on scheduled flights.
    Mr. Katko. I understand, Doctor, but if you can give me a 
direct answer, I would appreciate it. Then the question is 
simply, when you submitted that quote, there was no agreement 
to have any Federal air marshals on that non-charter flights, 
is that correct?
    Ms. Gowadia. That is----
    Mr. Katko. So you are referring to the charter flights, is 
that correct?
    Ms. Gowadia. Yes, sir.
    Mr. Katko. Thank you. All right, so, General Taylor. In a 
hearing we had on May 17, 2016, a Mr. Stodder from Homeland 
Security testified before us. In that hearing, he stated that 
there will be no flights between the United States and Cuba 
until Federal air marshals are allowed to be on those flights. 
I ask that that be entered into the record as well. Without 
objection, so ordered.
    [The information follows:]
 EXCERPT.--Flying Blind: What Are the Security Risks of Resuming U.S. 
                    Commercial Air Service to Cuba?
                         Tuesday, May 17, 2016
    Mr. Katko. Thank you. With respect to the Federal Air Marshal 
Service, is it your testimony that there will be no flights from the 
United States--from Cuba to the United States unless the Federal Air 
Marshal Service has been allowed to be on those flights, like they 
normally do elsewhere in the world?
    Mr. Stodder. Yes.
    [Additional information follows:]
               supplemental information submitted by dhs
    DHS encourages countries with Last-Point-of-Departure air carrier 
service to the United States to enter into agreements or arrangements 
regarding the deployment of Federal Air Marshals, but it is not a legal 
requirement. There are many additional passenger flights to the United 
States from countries with which there is no such agreement or 
arrangement in place. DHS is exploring the possibility of negotiating 
an agreement or arrangement in place. DHS is exploring the possibility 
of negotiating an agreement or arrangement with Cuba regarding the 
deployment of Federal Air Marshals on scheduled flights. DHS recently 
completed negotiations of an arrangement that would cover charter 
flights.

    Mr. Katko. OK. Thank you. You just don't know what that time frame 
is?
    Mr. Stodder. I mean, that agreement is still being under 
negotiation, but it is being negotiated now.
    Mr. Katko. So there will be no flights until that--until the 
Federal Air Marshals are allowed to be on the flights?
    Mr. Stodder. Correct.
    [Additional information follows:]
               supplemental information submitted by dhs
    DHS encourages countries with Last-Point-of-Departure air carrier 
service to the United States to enter into agreements or arrangements 
regarding the deployment of Federal Air Marshals, but it is not a legal 
requirement. There are many additional passenger flights to the United 
States from countries with which there is no such agreement or 
arrangement in place. DHS is exploring the possibility of negotiating 
an agreement or arrangement in place, including current flights between 
the United States and Cuba. DHS is exploring the possibility of 
negotiating an agreement or arrangement with Cuba regarding the 
deployment of Federal Air Marshals on scheduled flights. DHS recently 
completed negotiations of an arrangement that would cover charter 
flights.

    Mr. Katko. Can you explain to me why that decision was 
changed and to allow these flights to have without any Federal 
air marshals on them?
    Mr. Taylor. I would like to defer to Dr. Gowadia to answer 
that on behalf of the TSA.
    Mr. Katko. Well, OK, so you don't have an answer with that, 
General?
    Mr. Taylor. No, sir.
    Mr. Katko. OK, thank you. Well, before Dr. Gowadia answers, 
I will just note for the record that we are again--I make it 
very clear like I did yesterday, we do not oppose flights to 
and from Cuba. That is not my job, OK? That is not--whether I 
do agree with it personally or not is not the question. My job 
is to make sure that things are as safe as possible.
    In this instance, we have General Taylor agreeing with me 
that Federal air marshals are an integral part of the multi-
layered security apparatus. Indeed, the last line of defense 
for terrorism and air piracy, and we have opened up service to 
Cuba without having that last line of defense in place, and I 
think anyone who is in their right mind would tell you that is 
not a good idea.
    That is what I am very concerned about. What I am concerned 
about as well is that TSA sent out a document in August before 
the flights started, which indicated to some extent that--or at 
least shaded the fact that there is going to be Federal air 
marshals on select commercial flights.
    That gave the misimpression to the public that select 
commercial flights included the commercial flights, the non-
charter commercial flights. Maybe Americans took solace in that 
into saying it is OK to going to and from Cuba, but I think 
that is the type of thing that causes rifts in relationships 
and trustworthiness between agencies and oversight persons such 
as myself, and I am concerned about that going forward.
    There has been a rush to open up the airports in Cuba, I 
understand that. But we have to do our due diligence and with 
not even having Federal air marshals allowed on the flights 
categorically is not a good idea. We all know Federal air 
marshals aren't on every single flight and that is part of the 
risk base. When a bad guy gets on a flight, he knows or doesn't 
know of whether somebody is on it. That is important.
    When they know there is nobody on it, that is a bad thing, 
and it pains me to bring this up in a public setting, but I do 
it as an example of why we need more openness and more 
collaborations instead of obfuscation between the agencies. 
With that, I don't have any further questions.
    Mr. Taylor. Sir, if I might ask Dr. Gowadia to respond to 
your earlier question with regard to why that service is moving 
forward.
    Ms. Gowadia. Sir, I could not agree with you more. It is 
important that the exact deployments, the types of flights that 
are covered by FAMs be retained for the security enterprise of 
which you are definitely a part, which is why we have as many 
meetings with you and your staff on a regular basis. In fact, 
we are going to meet later this afternoon to further discuss 
the situation and what we are seeing and what we are learning.
    As regards to the statement of my colleague from policy, he 
did misspeak. That is exactly why, sir, you afford us the 
opportunity to correct the record. Secretary Johnson did 
testify later, explaining that we would be continuing to work 
to get that memorandum in place, but just as in many other 
countries across the world where we do not have FAMs 
agreements, we will continue to pursue that. We will continue 
to attempt to get as many FAMs on as many flights from as many 
last points of departure as possible.
    But we need the partnership of our international 
colleagues, our nation-State partners, the airlines, the 
airports, and we must continue to work with them in a 
collaborative way so that we can negotiate those agreements, 
share the right kinds of information, and be able to raise the 
level of security across the globe. That desire is constant 
between you and us, there is no daylight there.
    Mr. Katko. Dr. Gowadia, I agree with everything you said 
except one thing. You misled the American public when you 
issued that press release saying that it was going to be on 
select commercial flights.
    It did it at a time right before the flights were about to 
start, OK? Now, overlay that with the fact that we have no idea 
how the Cuban employees, all Communist Party employees, that 
work at the airports, there are no airline employees allowed to 
work there, that the Cuban government vets the employees and 
hires them, and we have no idea about their background or what 
their vetting process is to any appreciable amount other than 
what they tell us. We have no idea how much they are paid, we 
have no idea whether or not to any reasonable degree of 
certainty whether the machines work.
    We have no TSA people on the ground in Cuba, zero, 
permanently stationed. You are asking permission from the Cuban 
government to have one stationed at the embassy. That is it. On 
top of that, you don't have anybody, Federal air marshals on 
the commercial flights, the non-charter flights. On top of 
that, independent sources including the Washington Post have 
said that within the last 6 to 8 months, there is been a spate 
of fake Cuban passports, presumably being produced in Iran 
being circulated in the Middle East.
    So forgive us if it causes us a security concern. I agree 
with what you are saying, but when you directly mislead people, 
like that press release did, that is when I have a concern and 
that is when the trust between agency and oversight is 
deteriorated.
    I ask going forward that that be fixed and I have talked to 
Admiral Neffenger about that, as well. With that, I yield back. 
The Chair recognizes the gentleman from Texas, Mr. Ratcliffe, 
for 5 minutes of questions.
    Mr. Ratcliffe. Thank you, Chairman, I know as many folks 
have mentioned this past Sunday was the 15th anniversary of 
9/11, a day that I know none of us will forget.
    It was a day for me that changed my life, it caused me to 
become a terrorism prosecutor, and as the United States 
attorney and the chief of anti-terrorism and National security 
for the Eastern district of Texas, I had the responsibility of 
handling dozens of international and domestic terrorism 
investigations involving some of the Nation's most sensitive 
National security matters.
    So that is something that continues to influence my 
perspectives now as a Member of Congress. So, first of all, let 
me start off by thanking all of you for your dedicated service. 
The things that you and your employees do on a daily basis to 
secure our homeland from the threat of terrorism, I know it is 
a full-time job and then some. Because we know that terrorists 
are ever-adapting and constantly probing for new ways to commit 
the kind of atrocities that happened 15 years ago Sunday.
    One of those new ways was highlighted yesterday in some 
news reports involving the arrests of three suspects in 
Germany. According to those reports, the suspects traveled from 
Turkey to Greece posing as Syrian refugees in Germany. This is 
a reason for particular concern because as we have discussed 
previously in hearings before this very committee, ISIS has 
told us that it planned to exploit the refugee system as a way 
to execute terrorist attacks.
    Those three individuals that were arrested are reportedly 
associated with ISIS and therefore we are no longer talking 
about a hypothetical situation.
    We also know that--or at least I am going to assume that 
none of you can provide an assurance, or I doubt that you can 
provide more assurance that the FBI Director and Secretary 
Johnson gave us in prior hearings here about immunizing us from 
the possibility that ISIS is infiltrating our refugee program.
    So for all of those reasons, I am troubled by what the 
administration had announced previously about accepting 10,000 
Syrian refugees and now its announcement that it has in fact 
met that number. But I think what is most disturbing is the 
news just yesterday that the President plans to set the refugee 
ceiling for next year at 110,000, which would be an increase of 
30 percent from the 85,000 that we had in the last fiscal year.
    So it would appear that despite warnings from our own top 
National security officials, and then independent events like 
what happened in Germany, that the administration is 
essentially doubling down on this Syrian refugee program, and 
so I want to ask some questions here because I will remind 
folks of what Director Comey said before this committee.
    He said we can query our database until the cows come home 
but there will be nothing that shows up because we have no 
record of them. So let me start with you, Secretary Taylor, and 
maybe Director Rodriguez, you, as well. How are we making a 
determination that a refugee from Syria right now doesn't pose 
a threat to the United States if we don't have substantial 
information on them?
    Mr. Taylor. Congressman, let me allow--ask Director 
Rodriguez to respond to that and then I will come back to this 
whole issue of vetting and the effectiveness of it.
    Mr. Rodriguez. So the first thing that I would note is 
110,000 was set as an overall ceiling, so that is the whole 
world. So that does not necessarily tell us what the Syrian 
target or whether there will be a Syrian target in the future. 
Although I think the administration is very, very clear that we 
do want to provide relief there.
    The fact is that many, many people, literally hundreds of 
the refugees that we have screened, both utilizing the various 
counterterrorism and law enforcement databases that we use, 
using our highly-trained officers who conduct interviews, using 
the multi-layered process that also serves as an obstacle to 
those wishing to exploit or seeing the refugee flow as an 
opportunity of something to exploit, all of those provide us a 
number of very powerful safeguards.
    In fact, many, many people have been denied precisely 
because of information that has been identified in law 
enforcement and counterintelligence databases. An even greater 
number have been placed on hold because we are not comfortable. 
Because my officers, their supervisors are not comfortable with 
allowing that individual, whether they are Syrian, whether they 
are from Africa, whether they are from Central America, they 
have been denied travel because we are not comfortable. So that 
is the assurance that I can provide to the American people.
    In fact, let's talk for a second about what Director Comey, 
what my boss, Secretary Johnson had said, what National 
Counterterrorism Center Director Rasmussen said, what Director 
of National Intelligence Clapper said.
    They certainly spoke to what was in the databases at the 
time that they spoke, but they also, every single one of them 
corroborated the fact that the process that we conduct, the 
multi-layered, multi-feature process that we conduct is, in 
fact, a robust, intensive process that deserves the praise that 
it has received as the most intense vetting that any traveler 
to the United States receives.
    Mr. Ratcliffe. Well, let me comment on that. I will concede 
that I take some measure in comfort in knowing that our process 
for screening refugees is more stringent than some of our 
European counterparts, but despite the multi-layered process as 
you describe it, again, not having some assurance about being 
able to know for 100 percent certainty that these folks don't 
have terrorist ties that are coming from Syria.
    I guess my follow-up question would be, once they are here, 
what is DHS doing to continue monitoring the refugees after 
they are in the United States, if anything? Again I want to 
give you, Secretary, a chance to comment as well.
    Mr. Rodriguez. Let me see if I can get it out real fast. So 
first of all, the individuals are subject to something called 
an interagency check, which is initiated prior to their being 
interviewed by our officers.
    That is now being done as a recurrent process so that if 
new derogatory information arises about that person, either 
before or frankly even after travel, we and our law enforcement 
intelligence partners will be notified about that new 
information so that we can act on it.
    The other critical thing to understand is we encounter 
these people 1 year after they arrive when they present 
themselves for adjustment of status. We do a whole new round of 
checks on them at that time. So new information has arisen, at 
that time, there is, in fact, an encounter between those 
individuals and one of our field office immigration officers, 
and that becomes an opportunity to further deal with the 
prospect that one of these individuals might present a problem.
    Mr. Taylor. I wanted to just comment on the whole issue of 
vetting, and certainly I think both the Secretary and Director 
Comey were correct in stating we have less information on these 
individuals than let's say we would have on Iraqi refugees 
coming to our country just because we were involved in a war 
there for 10 years and there was information more readily 
available.
    The absence of specific information on these refugees does 
not mean we don't have any information. In fact, the 
connections--I won't get specifically into how we do this, we 
can do that in a closed session, in terms of analytics that are 
used to spot connections that aren't readily apparent. So it is 
not that we don't have perfect information on the individuals, 
if some of that information is destroyed. It does not mean we 
can't check other data sets for data that helps us better 
understand who we are dealing with and to validate their 
stories.
    Mr. Ratcliffe. Thank you all. Again, I was sincere in my 
appreciation for the work that you do and for all of you being 
here today to testify about these issues and I appreciate the 
Chairman's indulgence with respect to the time.
    Mr. Katko. Well, we were all indulged quite a bit today 
so--I think it led to some productive testimony, so that is no 
problem.
    I want to thank all the witnesses for your testimony today 
and the Members for their questions, and my colleague as 
always, Mr. Thompson. The Members of the committee may have 
some additional questions for the witnesses and we will ask you 
to respond to those in writing.
    Pursuant to Committee Rule VII(e), the hearing record will 
be held open for 10 days, and without objection, the committee 
stands adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

Questions From Ranking Member Bennie G. Thompson for the Department of 
                           Homeland Security
    Question 1. Parallel to your time serving as the director of USCIS, 
Europe has faced an unprecedented number of migrants and asylum seekers 
reaching its borders. This has resulted in wide-spread criticism among 
the public and politicians here in the United States. Do you feel our 
refugee vetting process is stringent enough to identify possible 
terrorists which may be hiding among incoming refugees to the United 
States?
    Answer. Security checks are an integral part of the U.S. Refugee 
Admissions Program (USRAP) for applicants of all nationalities. The 
refugee vetting process in place today employs the highest level of 
security measures of any immigrant or non-immigrant travel program to 
protect against risks to our National security. U.S. Citizenship and 
Immigration Services (USCIS) continues to engage with law enforcement 
agencies and the intelligence community (IC) to ensure that vetting for 
all refugee applicants, including Syrians, is as robust as possible. 
While simultaneously advancing humanitarian and National security 
mandates can be a challenge, they are not at odds with one another. 
Instead, by adopting a strong, unequivocal position on National 
security, the USRAP is able to ensure that vital resettlement 
opportunities stay available to those truly in need of protection while 
remaining vigilant in safeguarding the security of our Nation.
    Question 2. Some have expressed concern about our ability to vet 
Syrian refugees due to a perceived lack of information about this 
population in U.S. Government holdings, saying we should ``pause'' or 
eliminate the program entirely. Can you explain what special measures 
USCIS implemented to ensure the security of the integrity of the Syrian 
refugee program?
    Answer. The Department and USCIS have been working with the IC to 
identify additional screening opportunities leveraging unique holdings 
and capabilities. Security screening continuously evolves, and new 
enhancements to security screening practices continuously come on-line 
and get refined, including during the course of fiscal year 2016. USCIS 
is currently testing automated processes, with manual review, for the 
screening of refugee applicant information against public-facing 
portions of specific social media platforms. Additionally, USCIS has 
operationalized manual social media checks for certain Syrian and Iraqi 
refugee cases. Additional details can be provided in a Classified 
setting.
    Refugees are subject to the highest level of security checks of any 
category of traveler to the United States. Screening procedure have 
been expanded over time to include a broader range of checks and 
applicants. Screening partners include the National Counterterrorism 
Center, the Federal Bureau of Investigation (FBI), the Department of 
Homeland Security (DHS), the Department of Defense (DoD), and other IC 
and law enforcement members.
    We continually evaluate whether additional enhancements to the 
vetting process are necessary. Mindful of the particular conditions of 
the Syria crisis, the USRAP undertakes additional forms of security 
screening for Syrian refugees. If National security concerns are 
revealed during the interview or through the screening process, Syrian 
refugee applications are handled according to the same adjudicative 
processes as all other refugee benefit applications with identified 
National security concerns. We continue to examine options for further 
enhancements for screening Syrian refugees, which can be discussed in a 
closed setting.
    Question 3a. Some may argue that the questionnaires and interview 
methods used in the visa application process may be out of date, 
incomplete, or in need of revision to best identify possible security 
concerns.
    What sort of information should we consider gathering from foreign 
nationals?
    Answer. USCIS remains committed to ensuring that individuals posing 
a National security or public safety threat are not granted immigration 
benefits, and the information we currently adduce during the visa 
application process satisfies any potential security concern. USCIS is 
also committed to preventing fraud. In keeping with this commitment, 
USCIS has instituted a robust system of programs, procedures, and 
security checks, led by the Fraud Detection and National Security 
Directorate (FDNS). FDNS Immigration Officers work with adjudicators in 
every USCIS Center, District, Field, and Asylum Office, and with our 
Refugee Affairs Division, to identify and investigate cases with 
potential National security concerns. Adjudicators are trained to 
identify indicators of National security concern and to refer cases to 
FDNS for further investigation. Officers investigating National 
security concerns have security clearances to allow them to access 
relevant derogatory information and conduct their investigation. In 
addition to questions related to statutory eligibility for benefits 
being sought, USCIS engages in comprehensive interviewing and vetting 
of applicants within its jurisdiction. Questions are often tailored to 
the facts of individual cases.
    If USCIS discovers fraud in an application for an overseas 
beneficiary during our adjudication process, it does not forward the 
case to the Department of State (DoS) for consular processing. These 
cases are denied. USCIS documents the fraud in TECS for each case. 
Criminal concerns are documented in TECS, which are communicated to DoS 
via the Consular Lookout and Support System (CLASS). National Security 
Concerns are communicated to DoS both via TECS to CLASS, and USCIS 
includes a memorandum outlining the National security concerns that 
were identified.
    DoS has jurisdiction over interviewing overseas applicants seeking 
visas to travel to the United States. USCIS defers to DoS to explain 
their full process, but DoS Consular Officers do use a variety of 
methods to elicit information from applicants during the interview 
process to determine their eligibility for the visa being sought. 
Additionally, prior to issuing a visa overseas, the State Department 
conducts its own background checks.
    Question 3b. Does your agency have enough flexibility in its 
existing authorities to modernize the information we collect from 
foreign nationals?
    Answer. The Immigration and Nationality Act (INA) empowers USCIS 
officers to consider any evidence when adjudicating applications and 
petitions. Additionally, USCIS is able to leverage a variety of 
different technologies during the adjudication process to identify 
information relevant to adjudication. As methodologies, tools, and 
resources all improve, expansion of investigative tools, to include 
social media vetting, to further scrutinize high-risk populations is 
planned.
    USCIS screens applicants against available law enforcement and 
National security lookouts and records, as well as FBI biographic and 
biometric records. Much of this screening is automatically triggered 
when USCIS receives a new application or petition. In support of these 
screening efforts, USCIS works closely with DoS, U.S. Customs and 
Border Protection, U.S. Immigration and Customs Enforcement, and other 
partners in the IC and law enforcement community. USCIS engages with 
law enforcement and IC members for assistance with identity 
verification, acquisition of additional information, and deconfliction 
to ensure USCIS activities will not adversely affect an on-going law 
enforcement investigation.
    With the advances in transforming our systems, eventual full 
capture of data in an electronic environment will allow the agency to 
conduct searches and run analytics against combinations of data that 
the agency previously could not do without a very labor- and 
logistically-intensive process. The electronic system also allows for 
security checks to be automatically generated at any time throughout 
the process, ensuring updated information is always available to USCIS 
personnel. Finally, all information will be accessible from one 
location and available immediately to those who need it.
    Question 3c. Are additional resources necessary to do so?
    Answer. At this time USCIS has not identified any distinct 
additional costs, beyond what is already included in USCIS's budget, to 
modernize the information it collects from foreign nationals. With the 
exception of the E-Verify employment status verification program, the 
USCIS budget is derived from user fee collections rather than 
discretionary appropriations. Approximately 95% of USCIS's annual 
budget comes from the Immigration Examinations Fee Account (IEFA), 
which was established under the INA by adding Sections 286(m) and (n). 
As authorized under INA 286(m) and (n), USCIS sets its immigration and 
naturalization application and petition fees at a level intended to 
recover the full cost of providing adjudication and naturalization 
services, including the costs of similar services provided without 
charge to asylum applicants and other immigrants. In addition, as 
required by the Chief Financial Officers Act of 1990, USCIS conducts 
biennial fee reviews of the IEFA to determine if fees being charged are 
sufficient to recover full costs or whether a fee update is needed. 
When fees need to be adjusted to recover full cost, USCIS publishes a 
notice of proposed rulemaking (NPRM) in the Federal Register with a 60-
day comment period. This is then followed by a final rule addressing 
the public comments received. Based on its biennial fee review of IEFA 
for the fiscal year 2016/2017 period, USCIS proposed a fee schedule 
adjustment through an NPRM published in the Federal Register on May 4, 
2016. USCIS published the final rule on October 24, 2016 addressing 
public comments received on the NPRM. The revised USCIS fee schedule 
will be effective December 23, 2016. If additional costs associated 
with modernizing the information USCIS collects from foreign nationals 
are subsequently identified, they will be considered in the next IEFA 
biennial fee review for the fiscal year 2018/2019 period.
    Question 4a. Does USCIS have sufficient resources to effectively 
adjudicate refugee and visa applications?
    Are your fraud detection resources sufficient?
    Question 4b. What more can be done to ensure you have the tools you 
need to adjudicate applications in a timely and thorough manner?
    Answer. As noted in the response to Question 3, the biennial fee 
review conducted for the IEFA for the fiscal year 2016/2017 period 
indicated that a fee schedule adjustment is necessary for USCIS to 
recover the full costs of adjudications. Therefore, USCIS published a 
notice of proposed rulemaking on May 4, 2016, to adjust the fee 
schedule. The biennial fee review projected the anticipated level of 
resources necessary to achieve the agency's mission and goals, which 
include the effective adjudication of refugee applications and visa 
petitions, fraud prevention and detection, and adjudication of 
applications and petitions in a timely and thorough manner. USCIS 
published the final rule on October 24, 2016 addressing public comments 
received on the NPRM. The revised USCIS fee schedule will be effective 
December 23, 2016. USCIS is confident in the tools and processes used 
to adjudicate all applications and petitions.
 Questions From Ranking Member Bennie G. Thompson for Huban A. Gowadia
    Question 1. Dr. Gowadia, according to the testimony TSA vets all 
passengers travelling inbound to the United States against terrorist 
watch lists and that the agency can adjust its vetting in a risk-based 
manner to provide additional focus on specific travel patterns or 
locations. It is my understanding that this is the process at all last-
point-of-departure airports, including those based in Cuba. Am I 
correct?
    Answer. The Transportation Security Administration's Secure Flight 
Program vets all passengers on flights which are traveling into, out 
of, and over the continental United States, and all flights by U.S.-
flagged carriers. This includes all U.S.-flagged carriers which have 
now begun flights to or from Cuba.
    Secure Flight does have the capability to adjust vetting parameters 
to increase the number of passengers receiving enhanced screening at 
specific airports and in certain geographical areas in response to 
specific threat information. This capability includes any last-point-
of-departure airport, including those in Cuba. If information is 
developed which relates to an individual passenger, Secure Flight is 
able to respond appropriately so that sufficient security measures can 
be taken.
    Question 2. Currently, there are more than 100 scheduled flights 
between the U.S. and Cuba. Some people believe that terrorists will use 
Cuba as a gateway to gain entry into the United States. Does TSA have 
the capability, including access to intelligence, to vet passengers who 
are departing from Cuba?
    Answer. The U.S. Department of Transportation (DOT) authorized up 
to 100 daily scheduled flights between the United States and Cuba. The 
Transportation Security Administration's (TSA) Secure Flight Program 
prescreens all passengers who are traveling between the United States 
and Cuba in the same manner as is done for all other flights from 
international last-point-of-departure locations. TSA checks all 
passengers on these international inbound flights against the Terrorist 
Screening Database (TSDB). Intelligence data collected world-wide by 
the United States is reviewed by the National Counterterrorism Center 
(NCTC) and the Terrorist Screening Center (TSC) to identify individuals 
for proper placement on the TSDB. TSA utilizes a real-time TSDB 
information feed via TSC's Watchlist Service (WLS) for these vetting 
activities, including prescreening of individuals traveling between the 
United States and Cuba or individuals traveling through United States 
airspace on their way to or from Cuba.
    Question 3. According to the testimony, TSA has completed detailed 
vulnerability assessments and mitigation plans for over 300 airports 
Nation-wide. How often do these assessments and plans reoccur?
    Answer. Airport operators conducted these vulnerability assessments 
and produced mitigation plans in collaboration with the Transportation 
Security Administration (TSA) to better address insider threat 
vulnerabilities. At this time TSA has not made a determination on the 
frequency of these assessments. However, TSA continues to work with 
airports to assess vulnerabilities via routine inspections and 
assessments.
    Question 4. Following an Office of Inspector General report, which 
exposed TSA's screening deficiencies, TSA committed to retraining the 
entire Transportation Security Officer workforce. Please highlight some 
of the changes within the TSO training program.
    Answer. In response to the Inspector General's report on covert 
testing and the subsequent Transportation Security Administration (TSA) 
Tiger Team findings, TSA pursued several avenues to improve Officer 
training. The primary efforts include:
  <bullet> Starting in January 2016, TSA transferred Transportation 
        Security Officer (TSO) Basic Training from individual airports 
        to the TSA Academy established at the Federal Law Enforcement 
        Training Center in Glynco, Georgia in April 2012. This 
        centralized training provides TSA with the opportunity to 
        ensure a consistent training experience that supports the 
        professional development and enhanced performance of its 
        officer workforce. Additionally, it:
    <bullet> Allows training to be delivered in a dedicated, high-
            quality learning environment conducive to realistic, 
            scenario-based training;
    <bullet> Establishes a common culture and esprit-de-corps within 
            TSA at the beginning of a TSO's career; TSOs feel part of a 
            larger DHS counter-terrorism organization, develop a deeper 
            sense of mission; and
    <bullet> Ensures that training is standardized across the Agency.
  <bullet> The creation of the Mission Essentials Training Series to 
        reinforce Officers' technical skills, facilitate the sharing of 
        best practices, and provide current intelligence as it applies 
        to Officer screening functions. To date, the training includes:
    <bullet> Mission Essentials.--Threat Mitigation--Released July 2015
    <bullet> Mission Essentials.--Organics for the Advanced Technology 
            X-ray--Released January 2016
    <bullet> Mission Essentials.--Equipment and Security Capabilities--
            Released April 2016
    <bullet> Mission Essentials.--Advanced Image Interpretation--
            Released August 2016.
  <bullet> Initiation of Instructor-led X-ray training:
    <bullet> Developed, piloted, and trained the first ever instructor 
            led recurrent X-ray training.
    <bullet> This training uses images based on known weaknesses, 
            threats, and intelligence.
  <bullet> The training incorporates student participation so that 
        skilled TSOs can share best practices with their peers. The 
        training is quarterly, with proficiency assessments. If TSOs 
        cannot demonstrate proficiency, they receive structured 
        remediation.
    Question 5a. Dr. Gowadia, TSA's Basic Training Program requires 
that newly-hired TSOs participate in a 2-week long basic training 
program in Glynco, Georgia.
    Are you noticing improvements in testing and evaluation performance 
following graduation from the academy?
    Answer. Since the opening of the Transportation Security 
Administration (TSA) Academy for Transportation Security Officer Basic 
Training, internal covert testing results are trending up. However, the 
long-term effectiveness of the training can only be assessed once TSA 
has a large enough pool of graduates to provide statistically 
significant results.
    Since start-up in January 2016, TSA has graduated over 5,100 new 
hires, which comprises approximately 14 percent of the workforce spread 
across the network of 440+ airports. As the numbers of Academy 
graduates continues to increase, TSA is looking at other ways to assess 
the impact that Academy training is having on TSO performance. During 
covert testing, reviewing when and where a TSO received basic training 
will allow TSA to determine if there are notable differences in Academy 
graduates' detection capabilities. In addition to reviewing this data 
as it connects to the on-going covert testing program, TSA also plans 
to assess what impact Academy training has on the annual performance 
assessment (APR) scores for its officer workforce. The Academy 
graduates will only begin to enter into the APR cycle in the second 
quarter of fiscal year 2017. At the conclusion of the 2017 performance 
assessment cycle TSA will be able to determine if the Academy graduates 
score higher in their APR than was previously achieved by those 
officers trained in the field. TSA will continue to use the information 
derived through the covert testing and APR assessment programs to 
update and possibly expand and/or adjust the curriculum associated with 
TSO basic training.
    Question 5b. For single parents or those with familial needs, such 
as child care or they have a family who is dependent on their care, 
does TSA offer any sort of childcare stipend?
    Answer. TSA does not have a child care stipend at this time.
    Question 6. Since the retraining of all TSOs, have you noticed a 
significant change in TSOs feeling more united and connected to TSA's 
core values which includes integrity, innovation, and team spirit?
    Answer. The Transportation Security Administration (TSA) has made 
concerted efforts to help strengthen the culture, mission, and 
operational knowledge through training programs specifically designed 
for front-line employees. In August 2015, TSA launched the Mission 
Essentials Training Series to reinforce Transportation Security 
Officers' technical skills, dedication to TSA's mission, and to share 
best practices in Standing Operating Procedures and detection. In 
addition, in January 2016, TSA began basic training for new hires at 
the TSA Academy at FLETC in Glynco, GA, and the Academy has a 97 
percent passing rate.
    Due to the recent workforce training efforts, conclusive data is 
not yet available to attest to a rise in Transportation Security 
Officers' connection to TSA's core values. TSA will measure the front 
line's connection to TSA's mission and core values by closely analyzing 
and taking action on results from the annual Federal Employee Viewpoint 
Survey, which is a comprehensive indicator of employee satisfaction and 
engagement.
    Question 7a. In August, false reports of an active shooter at LAX 
resulted in multiple terminals being evacuated. LAX circulated a public 
statement to media outlets stating that, due to initial reports of an 
active shooter in Terminal 8 at LAX, passengers in several LAX 
terminals self-evacuated onto the tarmac and rushed through Federal 
security screening without being properly screened.
    What is the process of resterilizing the secure area after it has 
been breached?
    Answer. Each Federal Security Director in consultation with their 
Regional Director, the local airport authority, and other stakeholders 
is required to develop a Security Breach Containment Plan to include 
detailed evacuation and re-sterilization procedures and clearly defined 
procedures to isolate and immediately contain possible threats.
    Question 7b. When events like at mass evacuation occur, or any 
event that requires passengers to seek refuge by any means necessary, 
how does TSA ensure that passengers are rescreened once normal business 
resumes?
    Answer. Once a sweep of non-public locations is conducted, local 
Transportation Security Administration management work closely with 
local law enforcement and airport stakeholders to prioritize and re-
screen all passengers that wish to re-enter the non-public area.
    Question 8a. In August, terminals within LAX in Los Angeles, 
California, and JFK in New York City were evacuated due to reports of 
an active shooter; both were proven to be false.
    When an airport needs to be evacuated, what role do TSOs play?
    Answer. Federal Security Directors collaborate with airport 
authorities, law enforcement, and other stakeholders to support 
airport-wide education and to exercise evacuation plans. In addition to 
publishing a minimum recommended standard for airport operators to 
conduct bi-annual active-shooter training and exercises, TSA has 
distributed more than 500 copies of the ``Active Shooter Incident 
Response Training'' to airport directors and airlines and encouraged 
them to provide the airport-specific training to airport and airline 
employees.
    Question 8b. Are TSOs considered first responders in an emergency 
situation?
    Answer. TSOs are not considered first responders in an emergency 
situation. TSOs are instructed to give way to law enforcement and other 
emergency personnel during an active-shooter event. Afterwards, the law 
enforcement agency in control of the situation will deem the area safe 
and turn operational control back over to TSA, or the Airport 
Authority, as necessary.
    Question 8c. How often do TSOs practice evacuation plans or have 
evacuation drills?
    Answer. Federal Security Directors are required to conduct 
emergency evacuation drills for all assigned personnel a minimum of 
twice a year.
    Question 9a. During the recent JFK evacuation, security guards and 
custodial workers revealed that they were not made aware of airport 
evacuation plans. How often are airport employees and contract workers 
trained on airport evacuation plans?
    Answer. Airport evacuation plans are developed by airport 
authorities in concert with stakeholders. TSA is one of these 
stakeholders. Approximately 80 percent of Federalized airports have a 
schedule of exercises and training, which are conducted jointly with 
TSA and other stakeholders including airport and airline tenants, law 
enforcement officers, and fire and medical personnel. Additionally, 90 
percent of airports have a plan for establishing a unified command. TSA 
has also published a minimum recommended standard for airport operators 
to conduct bi-annual active-shooter training and exercises.
    Question 9b. What efforts has TSA taken to work with airports to 
ensure that airport employees and contract workers are properly 
educated on airport evacuation protocol?
    Answer. Federal Security Directors collaborate with airport 
authorities, law enforcement, and other stakeholders to support 
airport-wide education and to exercise evacuation plans. In addition to 
publishing a minimum recommended standard for airport operators to 
conduct bi-annual active-shooter training and exercises, TSA has 
distributed more than 500 copies of the ``Active Shooter Incident 
Response Training'' to airport directors and airlines and encouraged 
them to provide the airport-specific training to airport and airline 
employees.
    Question 10. When an airport does table-top exercises regarding 
active shooting situations, are other DHS entities such as Customs and 
Border Protection Immigration and Customs Enforcement involved?
    Answer. Airports are encouraged, but not required, to exercise in 
all emergency situations with other Department of Homeland Security 
entities, local stakeholders, and State and local law enforcement, as 
deemed appropriate for the purposes of that specific exercise. Although 
it is not required, these entities do coordinate closely with each 
other. Pursuant to the Gerardo Hernandez Airport Security Act of 2015 
(Pub. L. 114-50), the Transportation Security Administration (TSA) 
conducted outreach regarding security incident response at airports, 
and determined that approximately 80 percent of Federalized airports 
have a schedule of joint exercises and training, and conduct them with 
TSA and other stakeholders to include airport and airline tenants, law 
enforcement officers, and fire and medical personnel. Additionally, 90 
percent of airports have a plan for establishing a unified command.
    Question 11. On November 1, 2013, a lone gunman entered a terminal 
within the Los Angeles International Airport killing 1 TSO and wounding 
3 others. How has active-shooter training for TSOs been updated since 
the tragedy that occurred at LAX?
    Answer. In response to the tragic incident at Los Angeles 
International Airport (LAX), the Transportation Security Administration 
(TSA) mandated all employees view the Run, Hide, Fight video created by 
the Houston Police Department. TSA also mandated that all employees 
take the Federal Emergency Management Agency (FEMA) Active Shooter 
course that also addresses response techniques in the case of an 
active-shooter event.
    In 2014, TSA developed a new training video titled, Active Shooter 
Incident Response Training, specifically depicting active-shooter 
incidents in an airport environment. The interactive video was 
developed in partnership with industry partners, and captures a joint 
training exercise between the TSA, airport and airline tenants, as well 
as law enforcement, airport police, and other stakeholders. The 
training is designed to reinforce the widely-accepted active-shooter 
response reactions of Run-Hide-Fight and built upon materials presented 
in previous training courses. Also included was information that would 
help the workforce recognize how to respond when an active shooter is 
in the vicinity, and identify how to interact with Law Enforcement 
Officers who are responding to an incident. This training is an annual 
requirement for the entire TSA workforce and is geared towards airport 
environments. This training is required annually of all TSA employees.
    Further, in July of 2014, TSA incorporated a scenario-based 
exercise into its training course for its Lead Transportation Security 
Officers (LTSOs) that is delivered at the TSA Academy at the Federal 
Law Enforcement Training Center (FLETC) in Glynco, Georgia. The 
exercise for the LTSOs is designed to allow the officers to experience 
a simulated active-shooter incident. TSA will introduce this same type 
of simulated exercise into the new hire TSO Basic Training delivered at 
the TSA Academy in January 2017.
    Question 12. TSO morale has been historically low. These 
individuals perform a thankless job day in and out, yet often they 
receive ridicule and harsh criticisms in hard times, and little praise 
when things are going right. Just recently, Secretary Johnson praised 
their efforts in addressing wait times without compromising security 
throughout the peak travel period. What are you doing to boost morale 
and ensure it stays high?
    Answer. The Transportation Security Administration (TSA) is taking 
many steps to improve morale among the workforce. TSA analyzes results 
from the workforce opinion surveys, such as the Federal Employee 
Viewpoint Survey (FEVS), on an annual basis and targets high-priority 
areas for improvement through local (e.g. airport, office, corporate) 
and TSA-wide action plans. TSA focuses on improving overarching 
leadership communication to the workforce and employee engagement in 
problem solving. TSA has responded to employee feedback in the 
following ways:
  <bullet> Solicited input on agency improvements from the workforce 
        through its IdeaFactory, an on-line forum for TSA employees to 
        engage and share ideas.
  <bullet> Conducted action planning at the corporate, local, and team 
        level. Recently launched at 10 large airports, these teams have 
        seen improvements in key areas such as communication and career 
        development.
  <bullet> Built competency-based performance management systems for 
        all employees that allow supervisors and managers to recognize 
        and reward high performers through salary increases and 
        performance awards.
  <bullet> Implemented the Operations Network for Employees (ONE) 
        initiative to foster collaborative and productive working 
        relationships between headquarters and the front-line 
        workforce. This is a multi-phase initiative, which includes 
        bringing field employees to TSA headquarters to act as a voice 
        for their peers and to gain a better understanding of how 
        decisions are made and how programs are deployed to the field.
  <bullet> Established the TSA Academy at the Federal Law Enforcement 
        Training Center (FLETC), Glynco, Georgia, at which newly-hired 
        Transportation Security Officers (TSOs) receive basic training 
        in screening operations.
  <bullet> Introduced a series of training courses for its front-line 
        TSA leadership team, to include Leads, Supervisors, and 
        Managers. These courses focus on helping the leadership team 
        understand how to use communications tools and practices to 
        build a strong professional screening team at the checkpoint 
        and baggage screening areas. The use of TSA's Training Academy, 
        located at FLETC has yielded positive feedback from the 
        attendees and has demonstrated TSA's commitment to the 
        development of a professional workforce.
  <bullet> Modified the staffing model to add time at the start of each 
        shift, for airport shift briefings to encourage consistent 
        communication to front-line employees.
  <bullet> Increased transparency of the criteria for making screening 
        workforce performance awards, and worked to ensure rating 
        fairness among airports.
  <bullet> Created a learning, engagement, and career development web 
        site called Success U, to give employees the information and 
        resources necessary to build their skills. Nearly 50,000 unique 
        employees visited the site in its first year of operation.
  <bullet> Launched a blog called ``LEAD!'' targeted towards mid- and 
        senior-level leaders to stress the importance of communication, 
        collaboration, and motivation and to provide examples of good 
        engagement practices.
  <bullet> Implemented the TSA Mentoring Program to provide interested 
        employees with mentors who can provide career coaching and 
        other support.
  <bullet> Expanded the eligibility of the Leadership Education Program 
        to include lower-banded employees and increased the course 
        offerings from prestigious universities around the country in 
        order to make the program more accessible, effective, and 
        relevant.
  <bullet> Established an Associate's Program that allows TSA personnel 
        to continue their education and obtain an AA degree. TSA 
        established agreements with several educational institutions, 
        mostly community colleges, across the country to allow the 
        workforce, primarily TSOs, to continue their education. As of 
        January 2016, 240 airports, including their spokes, have 
        partnered with colleges offering distance learning courses, and 
        the program continues to grow.
  <bullet> Revised time frame from 2 years to 1 year for being promoted 
        from the D-Band TSO to E-Band TSO. TSA recognized that 
        requiring individuals to serve an additional year to be 
        eligible for promotion impacted the recruitment and retention 
        of qualified staff.
  <bullet> Initiated action during the summer of 2016 to convert part-
        time TSOs to full-time status. This action supported TSA's 
        operational needs at select airports and it also resulted in 
        providing part-time TSOs the opportunity to convert to full-
        time status. TSA's goal is to have a 90%/10% ratio of full-time 
        to part-time TSOs at these locations.
  <bullet> Approved paid parking for the screening workforce at all 
        airport locations (individuals receiving transit subsidies are 
        not eligible for this program).
  <bullet> Continued the retention incentive program for TSOs at hard-
        to-hire locations. These incentives allow TSA to compete with 
        the private sector in the recruitment and retention of 
        qualified staff.
    Question 13. TSA was able to address the wait times issue through 
increased overtime and the conversion of TSOs from full-time to part-
time due to increased funding from Congress. Knowing that travel is 
expected to steadily increase, are you concerned that funding is needed 
year over year to ensure the number of employee continues to be 
sufficient to match travel trends?
    Answer. The Transportation Security Administration (TSA) will 
carefully monitor passenger growth and the ability for the workforce to 
accommodate future operational demands. With support from Congress, TSA 
was able to realign funding to bring on additional Transportation 
Security Officers and is better positioned to handle volume growth for 
fiscal year 2017. In addition, Congress approved TSA to maintain 
current staffing levels during the fiscal year 2017 Continuing 
Resolution. However, a baseline adjustment is required to posture TSA 
for the long term in order to avert yearly requests. TSA is in the 
process of evaluating resource requirements for next summer and future 
years based on operational needs to ensure security effectiveness while 
maintaining passenger efficiency. As part of the evaluation process, 
TSA is in coordination with its stakeholders, such as the Federal 
Aviation Administration, airport operators, and airlines, to obtain 
predictors of passenger volume; So far the results provided identified 
continued passenger growth in fiscal year 2017 and beyond. TSA 
constantly performs analysis of alternatives that include possible 
technological and process-related improvements for checkpoint 
efficiency that do not risk degrading security effectiveness.
  Questions From Ranking Member Bennie G. Thompson for Kevin McAleenan
    Question 1a. Earlier this summer, CBP issued a 60-day public notice 
and request for comment on the collection of social media information 
for individuals traveling to the United States under the Visa Waiver 
Program. We understand that on August 31, 2016, CBP extended the period 
for public comment for an additional 30 days. The notice indicates that 
providing this information would be optional, and that the data 
elements collected will enable CBP to screen visitors for potential 
risks to National security and admissibility to this country, as well 
as serve as contact information for travelers.
    Can you please describe the responses you have received thus far 
for this request for comment?
    Answer. U.S. Customs and Border Protection (CBP) received 3,991 
comments from the public on the 60- and 30-day notices. The comments 
covered: General support for or opposition to adding social media 
handles to the Electronic System for Travel Authorization (ESTA) 
application; the authority and process for collecting and using this 
information; and, most frequently, the potential impact it could have 
on privacy and speech.
    Question 1b. How does CBP intend to use this feedback?
    Answer. As it does with any other public feedback, CBP will 
evaluate all comments and determine if any provide substantive 
information that might be useful in changing the proposed question that 
is pending incorporation within the ESTA application. CBP will also 
publicly post comments to the comments in accordance with the 
established process for responding to Paperwork Reduction Act notices.
    Question 1c. How would CBP authenticate or confirm that the social 
media identifiers provided are truly associated with the person seeking 
to enter the United States?
    Answer. Information found in social media will enhance the vetting 
process and be used, along with a range of other information provided 
by the traveler, to review ESTA applications to validate legitimate 
travel, adjudicate Visa Waiver Program (VWP) ineligibility waivers, and 
identify potential threats. CBP has a layered approach to security and 
social media identifiers collected via the ESTA application would only 
be one component. While there may be the potential for an applicant to 
provide false or inaccurate information, CBP verifies identity though a 
variety of mechanisms.
    Question 1d. Will these identifiers be protected in a similar way 
as other personally identifiable information?
    Answer. Yes. CBP will handle social media identifiers in the same 
manner as other information collected through ESTA. DHS has documented 
these procedures in the updated ESTA System of Records Notice (SORN) 
and Privacy Impact Assessment (PIA), which are available on the DHS 
website (www.dhs.gov/privacy).
    Question 1e. Can you please explain how this data would be used to 
enhance the screening of foreign travelers?
    Answer. Information found in social media will enhance the vetting 
process and be used to review ESTA applications to validate legitimate 
travel, adjudicate VWP ineligibility waivers, and identify potential 
threats. If an applicant chooses to answer these questions and an 
initial vetting by CBP indicates possible information of concern, a 
highly-trained CBP Officer will have timely visibility of the publicly 
available information on those platforms, consistent with the privacy 
settings the applicant has chosen to adopt for those platforms, along 
with other information and tools CBP officers regularly use in the 
performance of their duties.
    Social media may help distinguish individuals of additional concern 
from those individuals whose information substantiates their 
eligibility for travel. For example, social media may be used to 
support or corroborate a traveler's application information, which will 
help facilitate legitimate travel by providing an additional means to 
adjudicate issues related to relevant questions about identity, 
occupation, previous travel, and other factors. It may also be used to 
identify potential deception or fraud.
    Question 2. I understand that DHS plans to house a social media 
``cell'' at CBP's National Targeting Center (NTC) in the near term. Can 
you please share the progress of establishing this social media cell at 
the NTC?
    Answer. In December 2015, the Department stood up a Social Media 
Task Force, which has explored options to improve the Department's use 
of such data for vetting purposes. As part of this effort, DHS is 
creating an organizational structure to oversee, coordinate, and 
facilitate Department efforts to expand social media screening and 
vetting use across DHS mission sets. DHS intends to deploy this 
capability from the National Targeting Center (NTC). To date, Social 
Media Task Force members have completed multiple successful pilots. DHS 
has partnered with industry to push technology forward to meet 
Department needs. The Task Force is finalizing an implementation plan 
and funding strategy that uses a fee-for-service model to guarantee all 
DHS components will benefit from the expertise and technology 
innovation to ensure mission success.
    Question 3a. Secretary Jeh Johnson directed CBP to redouble its 
effort to establish a biometric entry-exit system and to begin 
implementing a biometric exit system at airports, starting at those 
with the highest passenger volume, by 2018. I understand that over the 
past year CBP launched four targeted biometric entry-exit pilot 
projects at the top international airports and at one pedestrian 
crossing on the Southwest Border.
    What time line has CBP adopted to evaluate and consolidate the 
results of these pilots?
    Answer. CBP completed the technical evaluation of the facial 
comparison pilot at Dulles International Airport earlier this year. The 
success of the facial comparison pilot prompted CBP to operationally 
deploy the technology to both JFK International Airport and Dulles 
International Airport. The technical evaluations for Biometric Exit 
Mobile and Pedestrian Entry/Exit in Otay Mesa are still both being 
compiled and should be completed by the end of the 2016 calendar year. 
CBP is also currently testing the ability of our IT infrastructure to 
support future biometric operations with technology in Atlanta. The 
results of these pilots will inform the concept of operations for 
biometric exit as we move forward with implementation.
    Question 3b. What is the time line for implementing the use of 
biometric exit technology at ports of entry?
    Answer. CBP will begin deployment of biometric exit in fiscal year 
2018, starting with the largest gateway airports.
    Question 3c. What roles will CBP's partners and stakeholders in 
private industry, including airlines and airports, play in this 
process?
    Answer. CBP's vision is to work extensively with airlines and 
airports in implementing a biometric exit process in order to minimize 
the impact on legitimate trade and travel. CBP does not plan to develop 
a biometric exit solution without private-sector involvement, and will 
use other successful public/private partnerships such as Automated 
Passport Control kiosks in order to deploy this new capability.
    Question 3d. How does CBP intend to memorialize the findings from 
these various pilots for use by the next administration?
    Answer. CBP will continue to work toward deployment of a biometric 
air exit capability through the transition and into the next 
administration.
    Question 4a. Secretary Johnson has committed to working toward 
enhancing maritime cargo security. Most notably, in May 2016, DHS 
published a Request for Information (RFI) entitled ``Strategies to 
Improve Maritime Supply Chain Security and Achieve 100 percent Overseas 
Scanning,'' which sought recommendations and information to achieve the 
mandate for 100 percent scanning (both NII imaging and radiation 
detection) in foreign seaports of all U.S.-bound maritime containerized 
cargo.
    Could you please describe the response received to this RFI?
    Answer. On May 2016, the Department of Homeland Security (DHS), via 
the Domestic Nuclear Detection Office (DNDO) issued a ``Request for 
Information (RFI): Strategies to Improve Maritime Supply Chain Security 
and Achieve 100 percent Overseas Scanning,'' which sought 
recommendations from a broad range of responders, including industry, 
providers of supplies and services, as well as the non-vendor 
stakeholder community and non-traditional contractors to improve the 
security of maritime containerized and non-containerized cargo 
departing foreign seaports bound for the United States and protect 
against radiological and nuclear threats. Specifically, DHS requested 
information from industry on various systems and alternative 
approaches, not limited to a single technology or single deployment 
strategy, that could be an innovative solution to maritime cargo 
screening and/or scanning. DHS received 25 submissions from the 
private-sector and academic institutions. Most of the responses 
addressed some aspect of the RFI, provided solutions that met the 
overarching goal, addressed ways to achieve 100 percent scanning, 
improve global radiological/nuclear detection capabilities, and reduce 
the amount of nuclear and radioactive materials out of regulatory 
control in the shipping environment.
    Question 4b. Since this RFI is one of the first steps in its 
procurement process, what is DHS's time line for moving forward with 
its next steps?
    Answer. An RFI may or may not be the first step in a procurement 
process. Its purpose is market research, not necessarily to begin a 
procurement. On occasion the RFI demonstrates that the marketplace does 
not yet have a solution to the agency's needs. In September 2016, DHS 
conducted follow-up discussions with 12 RFI respondents who 
demonstrated viable solutions that can help achieve the 100 percent 
scanning mandate. In particular, DHS met with responders who had a 
technical solution we were previously unfamiliar with, a potentially 
unique, paradigm-shifting idea, or who discussed certain aspects of 
maritime security (data integration/analysis, data fusion, image 
transfer, etc.). DHS will now begin reviewing the additional 
information and discuss options and next steps for pursuing 100 percent 
scanning. This includes identifying and prioritizing near-term vs. 
long-term strategies, identifying where we are already piloting 
enabling technologies that could be leveraged for 100 percent scanning, 
and exploring new policy ideas which could facilitate 100 percent 
scanning. This information, as well as ideas for how progress toward 
100 percent scanning could be made will be conveyed to the next 
administration. In late calendar year 2017, DHS could be in a position 
to potentially test viable solutions, ideas and technologies as 
appropriate and as feasible. Any potential activities or pursuits will 
be subject to resource availability and industry engagement.
    Question 4c. How is DHS going to ensure that these efforts are 
carried on in the next administration?
    Answer. DHS will ensure that the RFI-related efforts (e.g., 
potential or viable solutions, pilot program considerations, etc.) are 
briefed to the current administration, as well as the next 
administration via internal discussions, transition memos, etc. DHS 
will also respond to requests for briefings from Congressional 
committees and staff.
    Question 5a. Recently, the committee has learned of complaints from 
airline pilots and crew who have been sent for secondary inspection 
upon arrival in the United States, alleging the CBP Officers conducting 
the examinations were not professional in their conduct.
    What factors might prompt pilots and crew to be identified for 
additional screening upon arrival?
    Answer. CBP takes allegations of employee misconduct very seriously 
and has instituted policies pertaining to abuses of authority. 
Complaints of unprofessional conduct are recorded, investigated, and 
appropriate action is taken against CBP Officers who are found to have 
violated policy. However, the Privacy Act of 1974 generally prohibits 
the disclosure of records reflecting discipline toward CBP personnel.
    All persons, baggage, and other merchandise arriving in or leaving 
the United States are subject to inspection and search by CBP Officers. 
Various laws enforced by CBP (including 8 U.S.C.  1A 1357 as well as 
19 U.S.C.   482, 1433, and 1459) authorize such inspections. As part 
of the inspection process, CBP Officers, among other things, verify the 
identity of persons, determine the admissibility of travelers, and look 
for possible terrorists, terrorist weapons, controlled substances, and 
a wide variety of other prohibited and restricted items.
    Similar to any other person entering the United States, crewmembers 
may be potentially referred for secondary inspection. The reasons may 
include having the same or similar name as a wanted person, 
verification of crewmember identity and status, expired passport and/or 
visa, undisclosed merchandise, other items, or agricultural issues As 
for concern about being referred for inspection, in fulfilling its 
inspectional responsibilities under the law, CBP cannot guarantee that 
any traveler, whether a commercial air crewmember or otherwise, will 
not be referred for a secondary inspection. However, for any travelers 
that have difficulties or questions related to undergoing inspection, 
they may ask to speak with a supervisor, who is always available to 
address any CBP processing issues.
    Question 5b. Can you please describe the standards, protocols, or 
guidance CBP Officers are to adhere to when conducting secondary 
inspections like these?
    Answer. Secondary inspections are conducted as efficiently as 
possible to minimize the time a passenger or crewmember spends in the 
secondary inspection area waiting to be cleared. Although priorities 
exist as to the threat level of those referred for secondary 
inspection, every effort is made to clear secondary passengers in the 
order they are referred. It is important to note that crewmembers 
usually receive priority processing in secondary as operational 
conditions allow.
    Question 6a. The Committee has received complaints regarding a lack 
of professionalism among CBP employees conducting secondary inspections 
of airline pilots and crew, particularly at Miami International 
Airport. I understand that preventing dangerous people and goods from 
entering the United States, particularly on flights returning from 
high-risk locations, is an essential part of CBP's mission and strongly 
support your efforts in this regard. At the same time, the traveling 
public, including airline personnel, should be treated with 
professionalism by CBP personnel conducting such inspections.
    With that in mind, how does CBP determine when additional 
inspection of airline personnel is necessary?
    Answer. All persons, baggage, and other merchandise arriving in or 
leaving the United States are subject to inspection and search by CBP 
Officers. Various laws enforced by CBP authorize such searches, 
including 8 U.S.C.  1357 and 19 U.S.C.   482, 1581, and 1582. As 
part of the inspection process, CBP Officers must verify the identity 
of persons, determine the admissibility of travelers, and look for 
possible terrorists, terrorist weapons, controlled substances, and a 
wide variety of other prohibited and restricted items.
    Crewmembers could potentially be referred for secondary inspection 
for many of the same reasons as regular passengers such as, same or 
similar name as a wanted person, verification of crewmember identity 
and status, expired passport and/or visa, merchandise or other 
undisclosed items, or need for agricultural inspection. As for concern 
about being referred for secondary inspection, CBP cannot guarantee 
that any traveler (including crew), will not receive a protracted CBP 
inspection. However, if difficulties persist, travelers may ask to 
speak with a supervisor who is always available to address any CBP 
processing issues.
    Question 6b. Are there protocols for conducting such inspections?
    Answer. The protocols are the same as indicated above.
    Question 6c. What specific steps does CBP take in the secondary 
environment to ensure that inspections of airline personnel, and the 
traveling public generally, are conducted appropriately?
    Answer. The secondary inspection area, along with primary 
inspection and other areas of CBP processing, is closely monitored by 
Supervisory Customs and Border Protection Officers to ensure that 
officers are properly conducting all inspections in an effective and 
efficient manner. Management oversight of all operations, to include 
secondary inspection operations, is critical to an effective and 
professional process.
Questions From Ranking Member Bennie G. Thompson for Daniel H. Ragsdale
    Question 1a. ICE's Visa Security Program currently operates at 26 
high-risk or high-volume visa issuing posts overseas, helping to screen 
visa applications for possible security, criminal, or inadmissibility 
concerns. I would like to see the program operational at as many posts 
as necessary to help ensure security, as well as implementation of 
remote vetting of visa applications by your agency where it is not 
possible or practicable to have ICE personnel physically present.
    Is ICE considering further expanding the program?
    Answer. As of September 30, 2016, the U.S. Immigration and Customs 
Enforcement (ICE) Visa Security Program (VSP) screens nonimmigrant visa 
applications at 30 visa-issuing posts in 25 countries, the locations of 
which are Law Enforcement Sensitive. fiscal year 2016 saw the expansion 
of VSP operations to 5 additional posts in 5 countries. Coupled with 
the fiscal year 2015 VSP expansion, which consisted of 6 expansion 
posts, ICE has expanded the VSP by 11 posts in 2 years. ICE is 
committed to expansion of the Visa Security Program.
    Question 1b. How many additional posts should be a priority?
    Answer. ICE VSP conducts an annual site selection process to 
determine expansion; this list of potential sites is constantly 
changing due to emerging threats and situational intelligence. ICE 
considers a number of factors, including a country-based risk 
evaluation, the operational value of deployment, and the feasibility of 
establishing operations. ICE further narrows the list of potential 
sites by considering regional need and post support to ensure 
deployment to posts that would be most effective and valuable to the 
VSP mission. Once expansion post sites are identified, ICE submits a 
formal request to the Department of State for deployment and approval.
    Question 1c. What resources would be necessary to deploy additional 
locations and implement remote vetting?
    Answer. On average, it costs ICE approximately $2.7 million to 
establish an overseas post. It is important to note that the cost of 
opening a post can vary greatly depending on location and timing. Once 
established, the annual cost of maintaining an overseas post is 
approximately $2.2 million to $2.3 million. Section 6(a) of the 2003 
``Memorandum of Understanding Between the Secretaries of State and 
Homeland Security Concerning Implementation of the Homeland Security 
Act of 2002'' specifies that the U.S. Department of Homeland Security 
shall identify the diplomatic and consular posts where VSP posts are to 
be established and provides that such decisions be made in accordance 
with National Security Decision Directive (NSDD) 38. This gives the 
Chief of Mission (COM) control of the size, composition, and mandate of 
overseas full-time mission staffing for all U.S. Government agencies. 
Currently, physical expansion to a post, which is often governed by 
space limitations, is ultimately approved by the COM pursuant to the 
NSDD-38 process. Additionally, as VSP continues to expand its 
operational footprint, additional domestic support elements will be 
required, such as program managers, analysts, and mission support 
personnel.
    Expansion of VSP operations with a dedicated ICE Special Agent 
remains the program's stated model. ICE VSP has evaluated multiple 
remote screening and vetting scenarios and found that the investigative 
value of remote screening is limited, and that operations are often 
unsustainable without a dedicated VSP Special Agent. Further, the ICE 
VSP is more than a screening program. A post that is serviced by a 
dedicated ICE special agent enables direct coordination at post with 
other law enforcement, intelligence, and host government entities to 
exploit and investigate suspect visa applicants instead of simply 
denying travel. Without leveraging these capabilities, the VSP's 
ability to operate as a counterterrorism tool designed to identify, 
investigate, and disrupt illicit travel and illicit pathways is 
compromised. Consequently, at this time ICE VSP seeks expansion via 
deployment of a trained ICE Special Agent only.
    Question 2. According to your written testimony, in fiscal year 
2015, the VSP reviewed over 2 million visa applications, including 
approximately 8,600 cases in which visas were refused. Of these 
denials, over 2,200 applicants had some suspected connection to 
terrorism or terrorist organizations. Based on ICE's first-hand 
interaction with visa applicants and your partner agencies at visa 
issuing posts overseas, how can we improve the visa vetting process to 
enhance security and prevent those with terrorist ties from exploiting 
the visa process to travel to the United States?
    Answer. As of September 30, 2016, the VSP screens nonimmigrant visa 
applications at 30 visa-issuing posts in 25 countries, the locations of 
which are Law Enforcement Sensitive. In fiscal year 2016, the VSP 
expanded operations to 5 additional posts in 5 countries. Coupled with 
the fiscal year 2015 VSP expansion, which consisted of 6 expansion 
posts, ICE has expanded the VSP by 11 posts in 2 years. These efforts 
resulted from an $18 million enhancement appropriated to the VSP in 
fiscal year 2015.
    Concurrently, the VSP's capabilities further enhance the visa 
screening process by utilizing ICE's broad authorities. The VSP is 
unique among screening efforts in that it does not simply recommend the 
denial of travel; instead, it leverages ICE's capabilities during the 
visa application process to exploit suspect travelers in an effort to 
identify unknown threats and potential violations of criminal law. The 
VSP is currently working to utilize analytical resources to identify 
trends and patterns from VSP vetting efforts, to further enhance the 
investigative mission of the VSP.
    Question 3a. DHS, through CBP and ICE, has partnered with the 
Department of State to develop the Pre-Adjudicated Threat Recognition 
Intelligence Operations Team, or PATRIOT-an automated program used to 
vet all on-line visa application data through CBP's Automated Targeting 
System prior to visa application adjudication.
    To what extent does PATRIOT play a role in preventing misuse of the 
visa application process by terrorists or other high-risk or 
inadmissible travelers?
    Answer. U.S. Immigration and Customs Enforcement's (ICE) Pre-
Adjudicated Threat Recognition Intelligence Operations Team (PATRIOT), 
an interagency endeavor with U.S. Customs and Border Protection (CBP) 
and the Department of State (DOS), enhances the Visa Security Program's 
(VSP) ability to maximize the visa process as a counterterrorism tool 
to identify and investigate potential terrorists, criminals, and other 
aliens ineligible for a visa prior to travel. VSP PATRIOT significantly 
expands ICE's investigative and intelligence capabilities through 
focused rules-based screening of non-immigrant visa (NIV) applicants at 
VSP posts. VSP PATRIOT provides deployed ICE Special Agents with 
relevant information prior to conducting interviews and other 
investigative activities, to focus their efforts on those applicants 
who pose the greatest risk without adversely impacting individuals 
seeking to engage in legitimate travel. VSP PATRIOT bolsters the U.S. 
Department of Homeland Security's (DHS) investigative scope and 
capabilities to provide actionable leads to ICE offices, both domestic 
and abroad.
    Question 3b. Why is PATRIOT an important part of the vetting 
process?
    Answer. Through PATRIOT, the VSP screens 100 percent of NIV 
applications at VSP posts prior to DOS Consular Affairs (CA) 
adjudication. VSP PATRIOT utilizes law enforcement, open-source, and 
Classified systems to identify and address intelligence gaps prior to 
an applicant being interviewed by CA. Via the PATRIOT platform, the VSP 
provides a unified DHS response to DOS on both eligibility and 
admissibility concerns prior to a visa being issued. VSP PATRIOT 
assists DOS in the reduction of Security Advisory Opinions submitted by 
addressing potential concerns in the pre-screening process.
    Question 3c. Does ICE have plans to expand the PATRIOT program to 
meet changes in the visa application threat stream?
    Answer. Since fiscal year 2009, ICE has expanded VSP operations to 
an additional 20 visa issuing posts in 18 countries. As a result, VSP 
now screens 30 visa-issuing posts in 25 countries, representing nearly 
a three-fold increase to VSP's footprint in that time; at each of these 
posts, VSP operations include PATRIOT screening and vetting.
    Question 4a. Your shared testimony includes a general description 
of the new DHS Special Interest Alien Joint Action Group, which was 
established in June of this year and has produced a plan of action 
signed by Secretary Johnson just a few weeks ago.
    What role do CBP and ICE have on this Joint Action Group?
    Question 4b. What other agencies participate?
    Question 4c. How does this new Joint Action Group coordinate with 
other interagency task forces or working groups both within and outside 
the Department?
    Question 4d. What differentiates its mission from other groups, 
such as the Southern Border Joint Task Force?
    Question 4e. Is there an overlap in activities?
    Question 4f. Are there protocols or measures in place to minimize 
redundancy?
    Answer. The Deputy Director of U.S. Immigration and Customs 
Enforcement (ICE) is a Principal of the Special Interest Aliens Joint 
Action Group. ICE also has operations and intelligence personnel as 
members.
    The Special Interest Alien (SIA) Joint Action Group (JAG) was 
formed at the direction of Secretary Johnson in late June to ensure 
that the Department was maximizing its ability, internally and in 
partnership with other U.S. Government and foreign partners, to disrupt 
human smuggling networks and the ability of SIAs to reach U.S. borders. 
The JAG briefed the Secretary on its recommendations in August 2016. 
While the JAG will continue to operate to ensure implementation of its 
recommendations, it is not envisioned as a long-term or permanent body 
with an operational role, and therefore is not expected to duplicate or 
be redundant with other bodies.
    In response to your specific questions, U.S. Customs and Border 
Protection and ICE are represented in the JAG through their Deputy 
Commissioner and Deputy Director, respectively; along with the Deputies 
from the Office of Intelligence and Analysis, the Office of Policy, the 
U.S. Coast Guard, the Office of Public Affairs, and U.S. Citizenship 
and Immigration Services, with participation from the Joint Task 
Forces. The JAG focused its deliberations internally within the 
Department, but the Department is conducting outreach with other key 
departments and agencies, to include the Departments of Defense, State, 
and Justice, the Office of Management and Budget, and the intelligence 
community to discuss issues of shared responsibility or where 
departments other than DHS have a lead role in addressing human 
smuggling. Participants in the SIA JAG and other DHS personnel also 
participate in a number of interagency task forces and working groups, 
many of which provide venues to discuss, and seek to implement, the 
JAG's recommendations.
    We would be pleased to brief the committee on the SIA JAG 
recommendations and plans for implementation.
    Questions From Honorable William Keating for Daniel H. Ragsdale
    Question 1a. The recent high-profile hacking conducted by Russia on 
the Democratic Party, and cybersecurity attacks claimed by the Islamic 
State Hacking Group earlier in the year, highlight the dangers of 
nefarious actors infiltrating U.S. computer systems. One area that is 
of great concern is that of our general election systems. While the 
director of the Homeland Security Department has publically stated he 
is not aware of any cyber threats against voting machines, many cyber 
experts claim our machines remain vulnerable.
    How is the Department of Homeland Security working with States to 
ensure that our voting machines remain immune to hacking or tampering?
    Question 1b. What relationship does the Department have with the 
U.S. Election Assistance Commission or the Federal Election Commission?
    Question 2a. Last month, Director Johnson suggested the Federal 
Government label election systems as official U.S. critical 
infrastructure.
    How would such as a classification help improve the Department's 
ability to protect elections?
    Question 2b. What are some of the criticisms to classifying 
elections as critical infrastructure?
    Answer. We have confidence in the overall integrity of our 
electoral systems. It is diverse, subject to local control, and has 
many checks and balance built in. Nevertheless, we must face the 
reality that cyber intrusions and attacks in this country are 
increasingly sophisticated, from a range of increasingly capable actors 
that include nation-states, cyber hacktivists, and criminals. In this 
environment, we must be vigilant.
    Since August, Secretary Johnson of the Department of Homeland 
Security (DHS) has hosted several phone calls with election officials 
from across the country and representatives from the U.S. Election 
Assistance Commission, the National Institute of Standards and 
Technology, and the Department of Justice to discuss the cybersecurity 
of election infrastructure. The Secretary began by recognizing the 
important work State and local officials across the country have 
already begun to reduce risks and ensure the integrity of their 
elections. He also emphasized that cyber experts at DHS are available 
to assist State and local election officials in securing their systems, 
just as we do for businesses and other entities across the spectrum of 
the private and public sectors. This includes the most cybersecurity 
sophisticated businesses in corporate America.
    It is important to emphasize that, DHS's assistance is strictly 
voluntary and for support only. And, DHS's assistance does not entail 
regulation, binding directives, and is not offered to supersede State 
and local control over the process. The following DHS services have 
been offered to State and local officials.
    Cyber hygiene scans on internet-facing systems.--These scans are 
conducted remotely, after which we can provide State and local 
officials with a report identifying vulnerabilities and mitigation 
recommendations to improve the cybersecurity of systems connected to 
the internet, such as on-line voter registration systems, election 
night reporting systems, and other internet-connected election 
management systems. Once an agreement to provide these services is 
reached, DHS can complete this scan and provide the report within 1 
week. This can be followed by weekly reports on an on-going basis. Many 
State and local agencies are already employing DHS cyber hygiene scans 
on parts of their networks.
    Risk and vulnerability assessments.--These assessments are more 
thorough and done on-site by DHS cybersecurity experts. They typically 
require 2-3 weeks and include a wide range of vulnerability testing 
services, focused on both internal and external systems. When DHS 
conducts these assessments, we provide a full report of vulnerabilities 
and recommended mitigations following the testing. Given resource and 
time constraints, we can only conduct these assessments on a limited, 
first-come, first-serve basis.
    Incident Response.--The National Cybersecurity and Communications 
Integration Center (NCCIC) is DHS's 247 cyber incident response 
center. We encourage State and local election officials to report 
suspected malicious cyber activity to the NCCIC. Upon request, the 
NCCIC can provide on-site assistance in identifying and remediating a 
cyber incident. Information reported to the NCCIC is also critical to 
the Federal Government's ability to broadly assess malicious attempts 
to infiltrate election systems.
    Sharing of best practices.--DHS is publishing best practices for 
securing voter registration databases and addressing potential threats 
to election systems from ransomware.
    Field-based cybersecurity advisors and protective security 
advisors.--DHS has personnel available in the field who can provide 
actionable information and connect election officials to a range of 
tools and resources available to improve the cybersecurity preparedness 
of election systems and the physical site security of voting machine 
storage and polling places. These advisors are also available to assist 
with planning and incident management assistance for both cyber and 
physical incidents.
    Physical and protective security tools, training, and resources.--
DHS provides advice and tools to improve the security of polling sites 
and other physical election infrastructure. This guidance can be found 
at www.dhs.gov/hometown-security. This guidance helps to train 
administrative and volunteer staff on identifying and reporting 
suspicious activities, active-shooter scenarios, and what to do if they 
suspect an improvised explosive device. Officials can also contact a 
local DHS Protective Security Advisor.
    Finally, DHS is working to raise the level of cybersecurity in our 
electoral infrastructure over the long term. To help develop this plan, 
DHS has established an experts group comprised of academics, 
independent cybersecurity researchers, and Federal partners. A number 
of States have reached out to us with questions or for assistance. We 
strongly encourage more State and local election officials to do so.
    Question 3a. One of the ways the Homeland Security Committee, and 
the Terrorism Subcommittee in which I am Ranking Member, has sought to 
degrade ISIL, is through ensuring that the group's diversified revenue 
streams are eliminated. Alarmingly, the terrorist group is using looted 
antiquities to finance its activities across the region. For example, 
last May, U.S. Special Forces conducted an operation in Syria against 
Abu Sayyaf, described as ISIL's Chief Financial Officer, which revealed 
some of the clearest evidence yet that ISIL is directly involved in the 
trafficking of artifacts and other cultural objects. Last week, the 
House Ways and Means Committee passed a bill which I authored entitled 
the ``Prevent Trafficking in Cultural Property Act'' which ensures that 
law enforcement personnel watching our borders, including ICE and CBP 
personnel, are properly trained and equipped to prevent looted 
antiquities from entering the United States.
    What steps has the Department taken to ensure that its workforce is 
trained in recognizing stolen antiquities?
    Question 3b. How often does ICE and CBP coordinate efforts to stop 
trafficking in cultural property?
    Answer. To the Islamic State of Iraq and the Levant (ISIL) and 
other terrorist organizations, these objects of invaluable cultural and 
historical worth are one more source of revenue to exploit. The 
Department of Homeland Security law enforcement officers and agents 
have a heightened awareness of goods, especially those that may be 
cultural property, being imported or suspected of being imported from 
conflict areas.
    (a) U.S. Immigration and Customs Enforcement (ICE) and U.S. Customs 
and Border Protection (CBP) law enforcement personnel have undergone 
training that would prepare them for any kind of encounter, including 
one related to cultural property. However, since 2009, ICE has 
partnered with the U.S. Department of State's (DOS) Cultural Heritage 
Center and the Smithsonian Institution to provide specialized training 
on the handling, investigation, and seizures of items believed to be 
another nation's cultural property.
    Almost 400 agents, officers, and prosecutors representing 26 
domestic and 67 international locations in 48 countries have been 
trained so far, and the demand for training both domestically and 
abroad is increasing. Each workshop--entitled ``Preventing Illicit 
Trafficking/Protecting Cultural Heritage: ICE Training Program''-- 
includes presentations and discussions on legal authorities, case 
histories, and resources by myriad partners including multiple offices 
within ICE, CBP, the Smithsonian, DOS, the National Park Service, the 
Department of Justice, and INTERPOL. ICE and CBP are working closely 
together to explore additional options for enhancing our joint cultural 
property training and border enforcement operations in this space.
    Additionally ICE collaborates with DOS in conducting international 
workshops with foreign partners on the preservation of cultural 
heritage. Workshops were held in Canada in September 2015 and in Greece 
in April 2016. ICE is developing additional international workshops for 
fiscal year 2017.
    (b) ICE routinely coordinates efforts with CBP to stop trafficking 
in cultural property at the field operations, targeting, and program 
management levels. ICE special agents work side by side with CBP 
Officers at ports of entry and express mail facilities to investigate 
suspected trafficked cultural property discovered as part of the import 
process. Results of these investigations are incorporated into shared 
law enforcement information systems where they inform targeting efforts 
to identify other potential cases.
    ICE personnel collaborate with CBP Officers in the field and 
personnel at the National Targeting Center, routinely sharing 
information on suspected illicitly trafficked cultural property. ICE 
also provides results of these investigations to CBP's Fines, 
Penalties, and Forfeiture program in support of CBP's forfeiture of 
intercepted cultural property activities. Additionally, CBP assists ICE 
Homeland Security Investigation's (HSI) repatriation of forfeited items 
to their lawful owners, and CBP Officers regularly share best practices 
related to cultural property investigations.
    ICE and CBP are members of the Cultural Antiquities Task Force 
(CATF), which is managed by the DOS Cultural Heritage Center. The CATF 
brings Federal Government agencies together in an effort to provide 
leadership in international cultural heritage protection.
    ICE and CBP are also members of the Cultural Heritage Coordinating 
Committee, an interagency coordinating committee referenced in the 
Protect and Preserve International Cultural Property Act (Pub. L. 114-
151) and first formally convened by the Department of State on November 
4, 2016.

                                 [all]
</pre></body></html>
